APPENDIX

1a

APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
______________________
No. 16-4343
______________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
QUINTIN ANTONIO BELL,
a/k/a Quinton Antonio Bell,
a/k/a Quinten Antonio Bell, a/k/a Go-Go,
Defendant - Appellant.
______________________
Appeal from the United States District Court for the
District of Maryland, at Greenbelt. George Jarrod
Hazel, District Judge. (8:14-cr-00531-GJH-1)
______________________
Argued: March 22, 2018 Decided: August 28, 2018
______________________
Before NIEMEYER, WYNN, and DIAZ, Circuit
Judges.
______________________
Affirmed by published opinion. Judge Niemeyer
wrote the majority opinion, in which Judge Diaz
joined. Judge Wynn wrote a dissenting opinion.

2a
______________________
ARGUED:
Kian James Hudson, GIBSON,
DUNN & CRUTCHER, LLP, Washington, D.C., for
Appellant. Michael Thomas Packard, OFFICE OF
THE UNITED STATES ATTORNEY, Greenbelt,
Maryland, for Appellee. ON BRIEF: James Wyda,
Baltimore, Maryland, Paresh Patel, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Greenbelt, Maryland; Miguel A. Estrada, Russell B. Balikian, Nathan
H. Jack, GIBSON, DUNN & CRUTCHER LLP, Washington, D.C., for Appellant. Stephen M. Schenning,
Acting United States Attorney, Daniel C. Gardner,
Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Baltimore, Maryland, for Appellee.
______________________

3a
NIEMEYER, Circuit Judge:
Following a six-day trial, a jury convicted Quintin
Bell of (1) possession with intent to distribute 100
grams or more of heroin, in violation of 21 U.S.C. §
841(a)(1); (2) possession with intent to distribute a
quantity of heroin and cocaine base, in violation of 21
U.S.C. § 841(a)(1); (3) possession of a firearm as a
felon, in violation of 18 U.S.C. § 922(g)(1); and (4) possession of a firearm in furtherance of a drug-trafficking crime, in violation of 18 U.S.C. § 924(c)(1)(A).
Based on Bell’s prior convictions, the district court
sentenced Bell to a mandatory minimum sentence of
480 months’ imprisonment.
On appeal, Bell contends that the district court
erred (1) in denying his motion to suppress statements
he made to officers executing a search warrant for his
residence; (2) in admitting “other acts” evidence under
Federal Rule of Evidence 404(b); (3) in denying his
motion to disclose the identity of a confidential informant who provided information used to obtain the
search warrant; and (4) in enhancing his sentence on
the basis of his prior convictions.
For the reasons that follow, we affirm.
I
On April 9, 2014, an ATF task force consisting of
federal and state law enforcement officers obtained a
“no-knock” warrant from the Circuit Court of Prince
George’s County, Maryland, to search 5404 Morton
Place in Riverdale, Maryland, and to seize from the
house any narcotics, firearms, and related items
found. The probable cause for the warrant was based
on the affidavit of ATF Special Agent Frank Oliver,
who had learned from a confidential informant (“CI1”) that Bell was “utilizing the residence to sell and

4a
store large quantities of Heroin while armed with a
firearm.” The warrant application recounted that CI1 had recently visited Bell’s residence and “observed,
inside a room of the residence, a firearm and a quantity of heroin, consistent with distribution amounts.”
It further stated that the informant had been shown
a police photograph of Bell and had “positively identified” him as “the individual utilizing [the residence] to
sell . . . Heroin.”
The next morning, April 10, 2014, officers of the
Prince George’s Police Department made a forced entry into 5404 Morton Place to execute the warrant
and, while performing a security sweep, found Bell in
the basement and placed him in handcuffs. They led
him upstairs to the living room and seated him in a
chair near his wife, Stacy Bell (“Stacy”), who had also
been handcuffed and seated in a chair. After the
house was secured, Agent Oliver entered the living
room and, knowing that Stacy was the owner of the
house, informed her “that [he] had a narcotics search
warrant for the home” and then asked her, in the interest of officer safety, “if there [were] any weapons in
the house that would hurt an officer.” Before Stacy
could respond, however, Bell interjected, stating that
“there was a gun under the couch” next to them and
that “a friend had given him the gun [after] somebody
had tried to break into the house and rob him.” Officers then searched under the living-room couch and recovered a Mini-14 Ruger semiautomatic rifle.
The ATF task force proceeded to search the house,
recovering extensive evidence of drug trafficking. In
the basement, where Bell was found, officers found
approximately 112 grams of heroin and various drugtrafficking paraphernalia, including a digital scale,

5a
empty pill capsules, a capsule-filling device, and bottles of cutting agents. They also found a loaded rifle
magazine that was compatible with the Mini-14
Ruger rifle. In the master bedroom upstairs, the officers found in a nightstand several more grams of heroin, another scale, approximately $2,000 in cash, a letter addressed to Bell, and Bell’s driver’s license. And
in a separate bedroom, they found in a filing cabinet
approximately $10,000 in cash and a collection of jewelry. Upon completion of the search, the task force released Bell from custody, pursuant to the “request of
another [law enforcement] agency.”
Some four months later, on August 24, 2014, officers of the Metropolitan Police Department of the District of Columbia (“MPD”) received a tip leading them
to investigate a parked car in Southeast Washington,
D.C. Bell was in the car, accompanied by two others.
As the officers approached, Bell opened his door and
attempted to exit but was apprehended. The officers
found a loaded Glock pistol next to the driver’s seat,
where Bell had been sitting, as well as approximately
$1,000 in cash on Bell’s person. They also found several small baggies of marijuana, heroin, and crack cocaine in the car’s center console. One baggie containing marijuana was imprinted with green dollar signs,
and another baggie containing heroin was imprinted
with blue caricatures of a devil’s face.
After the MPD officers brought Bell back to the
station, a detective advised him of his Miranda rights
and then interviewed him. During the interview,
which was recorded by video, Bell stated that he had
been “sharing” the Glock pistol with another man in
the car; that the two of them had been “hustlin[g] together” when they were arrested; that he had come to
Washington, D.C., that evening to buy “two guns and

6a
some coke”; and that, in particular, he was expecting
to buy “two Rugers.” Bell was charged in the Superior
Court of the District of Columbia with several offenses
relating to this incident, but the government subsequently decided not to prosecute him in the District of
Columbia and dismissed the charges.
Five days later, on August 29, 2014, while Bell
was still in custody in Washington, D.C., the ATF task
force executed a second search warrant at 5404 Morton Place. Probable cause for this warrant was based
on Bell’s Washington, D.C. arrest, the evidence from
the initial search in April 2014, and CI-1’s assertion
that Bell was “storing quantities of heroin within [the]
residence . . . consistent with distribution amounts.”
During this search, officers found 14 grams of heroin
and 3 grams of crack cocaine in the basement, as well
as baggies marked with green dollar signs and blue
devil faces. Elsewhere in Bell’s residence, they again
recovered other evidence of drug trafficking, including
digital scales, bottles of cutting agent, and handgun
ammunition hidden inside a crockpot.
In November 2014, a grand jury indicted Bell on
four counts for drug trafficking and the illegal possession of a firearm. Bell filed a pretrial motion to suppress the statements he made to Agent Oliver during
the April 2014 search of his residence, when he admitted to possession of the Ruger rifle, contending that
the statements were obtained in violation of Miranda.
He also filed a motion to compel disclosure of the identity of CI-1 or, in the alternative, for an in camera examination of the informant to determine whether disclosure was warranted. Also prior to trial, the government filed a motion to admit evidence under Federal
Rule of Evidence 404(b) of Bell’s arrest in Washington,
D.C., including the video of his interview.

7a
Following a two-day hearing on these pretrial motions, the district court denied Bell’s motion to suppress, stating that Agent Oliver had testified credibly
about the April 2014 search; that Oliver had directed
his question about weapons in the house to Stacy; and
that Bell had then volunteered the answer. The court
thus concluded that Bell was not interrogated in violation of Miranda. The court also denied Bell’s motion
to disclose the identity of CI-1, explaining that Bell
had failed to meet his burden to pierce the informer’s
privilege or to obtain an in camera examination of the
informant that would risk disclosure of his or her
identity. Finally, the court granted the government’s
motion to admit evidence of Bell’s arrest in Washington, D.C., concluding that the evidence was reliable
and relevant to showing Bell’s knowing possession of
the rifle and drugs found in his residence and that any
prejudice to Bell would be outweighed by the evidence’s probative value.
Following trial, the jury convicted Bell on all
charges.
The probation officer prepared a presentence report noting Bell’s several prior convictions, on which
the government relied to argue that he was an “armed
career criminal” subject to a 15-year mandatory minimum sentence for his conviction under 18 U.S.C. §
922(g)(1) (firearm possession as a felon). See 18 U.S.C.
§ 924(e). The report also noted that Bell’s conviction
under 18 U.S.C. § 924(c) for possession of a firearm in
furtherance of drug trafficking subjected him to a
mandatory minimum consecutive sentence of 25
years’ imprisonment because he had a prior conviction
under § 924(c). Finally, the report classified Bell,
based on his prior convictions, as a career offender under U.S.S.G. § 4B1.1. Combining an offense level of

8a
34 and a criminal history Category VI with a second §
924(c) conviction resulted in an advisory Sentencing
Guidelines range of 562 to 627 months’ imprisonment,
and Bell’s statutory mandatory minimum sentence
was 480 months’ imprisonment.
Bell objected to the calculation of his Guidelines
sentencing range and to the statutory mandatory minimum sentence, arguing that his predicate convictions
did not qualify him as either an armed career criminal
or a career offender. He argued further that the statutory mandatory minimum sentences could not constitutionally be applied to him because the fact of his
prior convictions had neither been charged in the indictment nor found by the jury beyond a reasonable
doubt. The district court rejected Bell’s arguments
and sentenced him to 480 months’ imprisonment.
This appeal followed.
II
Bell contends first that the district court erred in
denying his motion to suppress the statements he
made on April 10, 2014, during the execution of the
first search warrant for 5404 Morton Place. During
the course of that search and after Agent Oliver asked
Bell’s wife, Stacy, “if there [were] any weapons in the
house that would hurt an officer,” Bell interjected that
there was a Ruger rifle under the couch. Bell notes
that he and Stacy “were being held together, next to
each other”; that “it is commonplace for [married] couples to jointly answer questions about matters within
their individual knowledge, even when a question is
directed only to one of them”; and that Agent Oliver
“did not specify whether [Bell] or [Stacy] should respond” to his question. Accordingly, he claims that

9a
Agent Oliver’s questioning of Stacy constituted interrogation of him, relying on Rhode Island v. Innis, 446
U.S. 291 (1980), to argue that, in those circumstances,
Oliver “should have known . . . that [the questioning]
was reasonably likely to elicit an incriminating response from Mr. Bell.” Thus, Bell maintains, because
he responded to interrogation while in custody without having been given the required Miranda warnings, his motion to suppress should have been
granted.
At the pretrial hearing, Agent Oliver described
the April 10 encounter in some detail, testifying that
after he entered the living room from outside the
house, he approached Stacy, because she was the
owner of the house, and “informed [her]” that the officers had “a narcotics search warrant for the home.”
He then asked her, out of “concern[] for officer safety,”
“if there [were] any weapons in the house that would
hurt an officer.” According to Agent Oliver, in posing
this question to Stacy, he walked to “[w]ithin a couple
feet” of her and “directed [his] question to [her] . . .
directly,” “looking at her in the eye.” At the time, Stacy
was handcuffed and seated in a chair in the living
room. Bell, who was also handcuffed, was seated in
“another chair off to the right, behind her chair,” and
the two chairs were “in close proximity” to each other.
After Agent Oliver directed the question to Stacy,
however, and before she could answer, Bell stated that
“there was a gun under the couch.” When the officers
looked under the couch, they found the Mini-14 Ruger
semi-automatic rifle that, Bell explained, a friend had
given him.
The district court accepted Agent Oliver’s testimony about the encounter, stating that he credited, as
a factual matter, “Agent Oliver’s testimony that he did

10a
direct the question at Ms. Bell and that the defendant
then volunteered an answer.” The court thus concluded that although Bell “was in custody, he was not
being interrogated” and that his statements were
therefore “admissible even though Miranda had not
been given.”
To safeguard the protection against self-incrimination guaranteed by the Fifth Amendment, the Supreme Court in Miranda adopted a set of procedural
rules that apply when a suspect is subjected to custodial interrogation, including the familiar requirements that he be informed of his “right to remain silent, that any statement he [makes] may be used as
evidence against him, and that he has a right to the
presence of an attorney, either retained or appointed.”
Miranda v. Arizona, 384 U.S. 436, 444 (1966). And
the Court has stated, in applying Miranda to circumstances similar to those before us, that “the Miranda
safeguards come into play whenever a person in custody is subjected to either express questioning or its
functional equivalent.” Innis, 446 U.S. at 300. “That
is to say, the term ‘interrogation’ under Miranda refers not only to express questioning, but also to any
words or actions on the part of the police (other than
those normally attendant to arrest and custody) that
the police should know are reasonably likely to elicit
an incriminating response from the suspect.” Id. at 301
(emphasis added); see also id. at 301 & n.7 (explaining
that “[t]he latter portion of this definition focuses primarily upon the perceptions of the suspect,” but that
“the intent of the police . . . may well have a bearing
on” the inquiry).
In Innis, the defendant was arrested for a robbery
that had been committed hours before with a shotgun.

11a
See 446 U.S. at 293–94. After Innis received his Miranda warnings and invoked his right to counsel, officers took him to the station in a police car, and on
the way, he overheard two officers discussing the need
to find the shotgun because there was a school for
handicapped children located nearby and one of the
children could find the gun and hurt himself. Innis
interrupted their conversation, stating that he knew
where the gun was located, and then led the officers
to it. Id. at 294–95. On those facts, the Supreme Court
rejected the Rhode Island Supreme Court’s conclusion
that Innis’s statement was the product of “subtle coercion” equivalent to “interrogation,” in violation of
Miranda. Id. at 296, 303. The Court noted that the
officers had not expressly questioned Innis as they
had spoken only to each other. Id. at 302. And it further concluded that the officers’ conversation did not
amount to the “functional equivalent” of questioning,
as the “entire conversation . . . consisted of no more
than a few off hand remarks”; that the remarks were
not “particularly ‘evocative’”; that Innis was not “unusually disoriented or upset at the time”; and that the
officers had no reason to believe Innis “was peculiarly
[concerned for] the safety of handicapped children.”
Id. at 302–03. Thus, while recognizing that the officers’ remarks presumably subjected Innis to “subtle
compulsion,” the Court held nonetheless that their
conversation did not amount to prohibited interrogation, as “it [could not] be said . . . that [the officers]
should have known that their conversation was reasonably likely to elicit an incriminating response.” Id.
In this case, as in Innis, it is apparent that Bell
was subjected to neither express questioning nor its
functional equivalent. Agent Oliver focused directly
on Stacy as the owner of the house, looked her in the
eye, and asked her a single question relating to officer

12a
safety — whether there “w[ere] any weapons in the
house that would hurt an officer.” The question was
not posed to Bell and did not seek a response from
him, nor was there any evidence that it was intended
to. Moreover, nothing in the formulation of the question would suggest that it invited a response from anyone other than Stacy. In short, the record hardly
supports Bell’s claim that the question, in the circumstances, was likely to elicit from him a statement implicating himself in the illegal possession of a firearm.
To be sure, Bell was within earshot, and thus it was
within the realm of possibility that he would interject
to answer the question. But a conclusion that Agent
Oliver should have known that his question to Stacy
was likely to prompt an incriminatory response from
Bell cannot be reconciled with the record before us, including the district court’s factual findings, which Bell
does not challenge. Nor could such a conclusion be
reconciled with the holding of Innis.
Innis’s articulation of the Miranda rule as applying not only to express questioning but also to its
“functional equivalent” reflected the Supreme Court’s
concern that certain conduct by the police could be designed to have the same coercive effect as conventional interrogation. To illustrate, the Court gave as
examples several “techniques of persuasion,” such as
using a “coached witness” to pick the suspect out of a
police lineup, or accusing him of a “fictitious crime” in
order to induce his confession to the actual crime under investigation. Innis, 446 U.S. at 299. The Innis
rule thus encompasses “words or actions . . . that the
police should know are reasonably likely to elicit an
incriminating response,” id. at 301, but it also recognizes that an officer’s conduct does not give rise to
“‘[i]nterrogation,’ as conceptualized in the Miranda
opinion, [unless it] reflect[s] a measure of compulsion

13a
above and beyond that inherent in custody itself.” Id.
at 300 (emphasis added). Indeed, in applying this
standard, the Court emphasized that even though “it
may be said” that officers had subjected Innis to “subtle compulsion,” that alone was insufficient to qualify
the officers’ remarks as interrogation. Id. at 303.
Here too, the record before us falls well short of
establishing that Bell was subject to anything beyond
the compulsion inherent in custody itself or the “subtle compulsion” accepted in Innis. It can hardly be
said that overhearing a single question posed to one’s
spouse creates the necessary level of compulsion without more. To the contrary, the district court found as
fact that Bell had “volunteered” his answer to the
question directed to Stacy. At bottom, we cannot conclude that Agent Oliver’s single question to Stacy resulted in the degree of coercion for it to constitute the
functional equivalent of express questioning, as would
make Bell’s self-incrimination likely enough that Oliver should have foreseen it. See Innis, 446 U.S. at
301–02 (noting that “the police surely cannot be held
accountable for the unforeseeable results of their
words or actions”); United States v. Johnson, 734 F.3d
270, 277 (4th Cir. 2013) (“Innis rejects [the] possibility
[of self-incrimination] in favor of foreseeability”).
We therefore affirm the district court’s ruling on
Bell’s motion to suppress.
III
Bell contends next that the district court abused
its discretion in admitting evidence about his August
24, 2014 arrest in Washington, D.C., particularly the
video of his police interview and the testimony of the
MPD officers who arrested Bell relating how Bell was
seated next to a Glock handgun and several bags of

14a
illegal drugs. Because Bell was not charged for this
conduct, the district court admitted the evidence under Federal Rule of Evidence 404(b) as proof that Bell
knowingly possessed the drugs and Ruger rifle recovered from the April and August 2014 searches of his
Maryland residence. Bell argues that, “as compared
to the charged conduct [in Maryland], the [Washington, D.C.] incident involved a different gun and categorically different quantities of drugs found in . . . a
different context,” and thus the evidence could only be
relevant to establish his criminal propensity, a prohibited ground for the admission of such evidence under Rule 404(b). He argues further that, even if the
evidence had some marginal relevance, it should have
been excluded under Rule 403 because “that relevance
was vastly overshadowed by the danger of unfair prejudice [to him].”
Rule 404(b) provides that “[e]vidence of a crime,
wrong, or other act is not admissible to prove a person’s character in order to show that on a particular
occasion the person acted in accordance with the character” (emphasis added), but that such evidence may
nonetheless be admissible for other purposes, “such as
proving motive, opportunity, intent, preparation,
plan, knowledge, identity, absence of mistake, or lack
of accident.” It is thus a rule of inclusion because it
“recognizes the admissibility of prior crimes, wrongs,
or acts, with only the one stated exception.” United
States v. Queen, 132 F.3d 991, 994 (4th Cir. 1997).
To admit evidence of uncharged crimes under
Rules 404(b) and 403, we have held that it must satisfy the following criteria:
(1) The evidence must be relevant to an issue,
such as an element of an offense, and must not
be offered to establish the general character of

15a
the defendant. . . . (2) The act must be necessary in the sense that it is probative of an essential claim or an element of the offense. (3)
The evidence must be reliable. And (4) the evidence’s probative value must not be substantially outweighed by confusion or unfair prejudice in the sense that it tends to subordinate
reason to emotion in the factfinding process.
Queen, 132 F.3d at 997; see also United States v.
Lighty, 616 F.3d 321, 352 (4th Cir. 2010). And the unfair prejudice is not shown merely because the evidence is damaging to a defendant’s case, since “highly
probative [evidence] invariably will be prejudicial to
the defense.” United States v. Basham, 561 F.3d 302,
326 (4th Cir. 2009) (internal quotation marks and citation omitted).
In this case, we readily conclude that the district
court did not abuse its discretion in admitting the
Washington, D.C. evidence. The video of Bell’s police
interview — in which he stated that he had been
“sharing” the handgun with a companion as they
“hustl[ed] together,” and that he was expecting to buy
“some coke” and “two Rugers” — was plainly necessary and relevant to showing that Bell had, as
charged, possessed the Ruger rifle in furtherance of
drug trafficking four months earlier. And the MPD
officers’ testimony, recounting how Bell was arrested
with heroin, marijuana, and crack cocaine, packaged
in distinctively marked baggies, was similarly probative. Indeed, those same narcotics, and the same baggies, were discovered in Bell’s basement the very next
week. Rather than merely establishing a propensity
to commit crimes, the Washington, D.C. evidence was
persuasive proof that Bell had, as alleged in the indictment, knowingly possessed the illegal drugs in his

16a
residence with the intent to distribute them and that
he had knowingly possessed the Ruger rifle in furtherance of his drug-trafficking activity. Bell’s character
was not at issue and the evidence was not admitted to
prove his character. But intent and motive were at
issue, and evidence of both were admissible under
Rule 404(b). Finally, Bell makes no claim that the
Washington, D.C. evidence was unreliable.
As to Bell’s claimed unfair prejudice under Rule
403, nothing in the record suggests that admitting the
Washington, D.C. evidence created confusion or
tended to subordinate reason to emotion in the jury’s
factfinding process. Moreover, Bell was notified before trial of the government’s intent to use the Washington, D.C. evidence, and the district court gave appropriate limiting instructions to the jury, explaining
that the evidence could only be considered to infer his
intent to commit the crimes alleged in his indictment.
See Queen, 132 F.3d at 997–98.
Nonetheless, Bell argues that our decision in
United States v. Hall, 858 F.3d 254 (4th Cir. 2017),
compels us to reach a contrary conclusion. In Hall,
the defendant was convicted of possession with intent
to distribute marijuana and related firearm offenses
after the district court admitted, as evidence of
knowledge and intent under Rule 404(b), his several
prior marijuana convictions. The prior convictions,
however, all predated the offenses in Hall’s indictment by at least five years, and the government provided only the date and statutory citation of each conviction without offering “any [other] information regarding the circumstances giving rise to the convictions.” Id. at 262. We held that the district court had
abused its discretion because the defendant’s criminal
history was either irrelevant to the purpose for which

17a
it had been admitted or, for certain purposes, so marginally relevant and unduly prejudicial as to violate
Rule 403. Id. at 268–76. Our holding in Hall, however, is far afield, as the evidence admitted there was
the bare fact of the defendant’s convictions from more
than a half-decade before. In this case, by contrast,
the evidence at issue is the defendant’s own conduct
and statements, which had a close factual and temporal nexus to the crimes charged in the indictment.
Bell’s reliance on Hall is thus unavailing.
We therefore conclude that the district court did
not abuse its discretion in admitting the evidence of
Bell’s arrest in Washington, D.C.
IV
For his final challenge to his conviction, Bell contends that the district court erred in denying his motion to compel disclosure of the identity of the confidential informant who supplied law enforcement with
information used to obtain the search warrants for his
residence or, in the alternative, to have the district
court conduct an in camera examination of the informant to determine whether disclosure was warranted.
He argues that the crux of his defense was that the
contraband at his residence actually belonged to Steven Wise, a heroin addict who assertedly had been living in Bell’s basement prior to his death in August
2014. In light of Wise’s unavailability as a witness,
Bell maintains that he was entitled to pierce the informer’s privilege so that he would have an opportunity to examine the informant at trial, as this “could
establish that the informant [had] mistakenly identified Mr. Bell [to law enforcement] and that the contraband actually was possessed by Mr. Wise.” By deny-

18a
ing his motion, Bell argues, the district court foreclosed his ability to offer testimony that was “essential
to a fair determination of [his] case.”
The district court denied Bell’s motion because
Bell had failed to meet his “heavy burden to demonstrate the need for identification,” as would allow him
to pierce the informer’s privilege.
The “informer’s privilege,” which protects a confidential informant’s identity, “is in reality the Government’s privilege to withhold from disclosure the identity of persons who furnish information [about
crimes]” to law enforcement. Roviaro v. United States,
353 U.S. 53, 59 (1957). In Roviaro, the Court declined
to adopt a bright-line rule for determining when a defendant may pierce the privilege, stating that the issue instead calls for case-by-case “balancing [of] the
public interest in protecting the flow of information [to
law enforcement] against the individual’s right to prepare his defense.” Id. at 62. Whether disclosure
should be ordered therefore depends “on the particular circumstances of each case, taking into consideration the crime charged, the possible defenses, the possible significance of the informer’s testimony, and
other relevant factors.” Id. And in applying Roviaro,
we have held more particularly that “the government
is privileged to withhold the identity of [an] informant
when [he] was a ‘mere tipster,’ or was used only for
obtaining a search warrant, but that failing to disclose
the informant’s identity more likely amounts to error
when the informant was an active participant in the
events leading to the arrest of the accused.” United
States v. Gray, 47 F.3d 1359, 1365 (4th Cir. 1995) (emphasis added) (citations omitted).
In this case, we cannot conclude that the district
court abused its discretion in refusing to disclose the

19a
identity of CI-1, the confidential informant who supplied information used by law enforcement to obtain
the two warrants for the search of Bell’s residence.
Other than providing information for the search warrants — namely, that the informant had recently observed Bell “inside a room of the residence, [with] a
firearm and a quantity of heroin . . . consistent with
distribution amounts” — the informant apparently
had no role in Bell’s crimes or his prosecution. The
informant did not participate in the offenses charged
in Bell’s indictment, which arose from Bell’s possession of narcotics and a firearm at times when the informant was not present, nor was the informant even
mentioned to the jury at trial. Moreover, the assertion
that the informant might have testified that it was
Wise, not Bell, who had stockpiled illegal drugs at
Bell’s residence — in flat contradiction to the representations in the warrant affidavits — appears dubious, if not entirely speculative. In short, Bell has identified nothing in this case to exempt it from the “well
settled principle that the government is permitted to
withhold the identity of a confidential informant when
‘the informant was used only for the limited purpose
of obtaining a search warrant.’” Gray, 47 F.3d at 1365
(quoting United States v. Poms, 484 F.2d 919, 922 (4th
Cir. 1973)).
We also find no fault in the district court’s refusal
to convene an in camera proceeding to explore this issue further. Under the circumstances, the court was
entitled to conclude that any marginal benefit to Bell
from such a proceeding would not be worth the added
risk of disclosure of the informant’s identity.
The cases on which Bell relies to argue that disclosure is nonetheless required are materially distinguishable in that the confidential informants in those

20a
cases were intimately involved in the crimes that were
to be proved at trial. See McLawhorn v. North Carolina, 484 F.2d 1, 6 (1973) (officers used informant to
set up a controlled purchase of narcotics from the defendant); United States v. Price, 783 F.2d 1132, 1139
(4th Cir. 1986) (“[T]he informant in this case did much
more than tip off the government. . . . [He] set up the
deal [and] was a necessary party to the telephone negotiations which led to the attempted [contraband]
sale”). In such a case, the defendant has a colorable
claim that the informant’s identity is necessary to a
fair determination of his guilt or innocence. See Roviaro, 353 U.S. at 64–65. But, as we have explained,
Bell cannot make any such claim.
V
In challenging his 480-month prison sentence,
Bell contends that, in concluding that he was subject
to mandatory minimum sentences based on prior convictions, the district court erred in finding the fact of
his prior convictions rather than submitting the issue
to the jury. This error, he argues, violated his Sixth
Amendment rights.
Bell’s argument, however, is foreclosed by the Supreme Court’s decision in Almendarez-Torres v.
United States, 523 U.S. 224 (1998), where the Court
recognized an exception to the Sixth Amendment that
permits a sentencing judge to find the fact of a defendant’s prior convictions instead of a jury, even when
this fact increases the statutory maximum or minimum penalty. Id. at 247; United States v. McDowell,
745 F.3d 115, 123 (4th Cir. 2014). Bell nonetheless
argues that the Almendarez-Torres exception is “flatly
inconsistent” with the Supreme Court’s subsequent
decision in Alleyne v. United States, which held “that
facts that increase mandatory minimum sentences

21a
must be submitted to the jury.” 570 U.S. 99, 116
(2013). The Alleyne Court, however, expressly exempted “the fact of a prior conviction” from its holding,
leaving intact the “narrow exception” to the Sixth
Amendment recognized in Almendarez-Torres. Id. at
111 n.1; see also McDowell, 745 F.3d at 124 (noting
that “Almendarez-Torres remains good law [even after
Alleyne], and we may not disregard it unless and until
the Supreme Court holds to the contrary”).
VI
In challenging his sentence, Bell also contends
that the district court erred in relying on prior convictions that did not qualify as predicate offenses to conclude that he was subject to a mandatory minimum
sentence of 40 years’ imprisonment.
The district court imposed a 40-year mandatory
minimum sentence by adding together two components: (1) a 15-year mandatory minimum sentence for
his § 922(g)(1) conviction because Bell had at least
three prior convictions “for a violent felony or a serious drug offense” under the Armed Career Criminal
Act (“ACCA”), 18 U.S.C. § 924(e)(1); and (2) a consecutive 25-year mandatory minimum sentence for his
§ 924(c) conviction because Bell had a prior § 924(c)
conviction, see § 924(c)(1)(C)(i), (D). To satisfy the requirement of three qualifying prior convictions under
§ 924(e)(1), the district court relied on two 1985 Maryland convictions for “robbery with a deadly weapon”
and a 1991 federal conviction for “possession with intent to distribute — cocaine base.”
Bell’s challenge focuses only on the two 1985 Maryland convictions for “robbery with a deadly weapon.”
He contends that those two convictions do not qualify
as predicate convictions under § 924(e) because, as he

22a
argues, the offense “does not have as an element the
use or threatened use of violent force against a person,
as required by the ACCA [§ 924(e)],” in that “it can be
accomplished with force to property, and it can be accomplished with non-violent (i.e., de minimis) force
against a person.”
Section 924(e) provides that any “person who violates section 922(g) of this title and has three previous
convictions . . . for a violent felony or a serious drug
offense, or both, . . . shall be . . . imprisoned not less
than fifteen years.” 18 U.S.C. § 924(e)(1). The term
“violent felony” is defined, as relevant here, as “any
crime punishable by imprisonment for a term exceeding one year . . . that . . . has as an element the use,
attempted use, or threatened use of physical force
against the person of another.”
18 U.S.C.
§ 924(e)(2)(B)(i). To determine whether a prior conviction satisfies this definition of a violent felony —
known as the “force clause” — we apply the categorical approach. See United States v. Reid, 861 F.3d 523,
527 (4th Cir. 2017). Under this approach, we do not
look to the facts underlying the prior conviction but
must instead determine whether the prior offense by
its elements involves “the use, attempted use, or
threatened use of physical force against the person of
another.” And the term “physical force,” in the context
of describing a violent felony, entails more than the
“mere unwanted touching” necessary to prove common law battery, Johnson v. United States, 559 U.S.
133, 142 (2010); rather, it is understood to mean “violent force — that is, force capable of causing physical
pain or injury to another person,” id. at 140.
In determining whether a state offense encompasses the use of such force as an element, we look to

23a
state law and “the interpretation of [the] offense articulated by that state’s courts.” United States v. Winston, 850 F.3d 677, 684 (4th Cir. 2017) (citations omitted). But the determination of whether the elements
of a state offense qualify under the force clause is a
question of federal law. See Taylor v. United States,
495 U.S. 575, 590–92 (1990). As the Supreme Court
has stated, “[T]he label a State assigns to a crime . . .
has no relevance to whether that offense is an ACCA
predicate.” Mathis v. United States, 136 S. Ct. 2243,
2251 (2016) (citing Taylor, 495 U.S. at 590–92).
In this case, Bell was twice previously convicted
in Maryland state court for “robbery with a deadly
weapon.” Robbery in Maryland is a common law crime
defined as “the felonious taking and carrying away of
the personal property of another from his person by
the use of violence or by putting in fear.” Williams v.
State, 490 A.2d 1277, 1280 (Md. 1985). At the time of
Bell’s convictions, the offense of common law robbery
was incorporated into two provisions of the Maryland
Code. The first, Maryland Code, Article 27 § 486 (now
repealed), provided:
Every person convicted of the crime of robbery, or as accessory thereto before the fact,
shall . . . be sentenced to the penitentiary for
not less than three nor more than ten years.
And the second, Maryland Code, Article 27 § 488 (now
repealed), provided:
Every person convicted of the crime of robbery
or attempt to rob with a dangerous or deadly
weapon or accessory thereto, shall . . . be sentenced to imprisonment in the Maryland Penitentiary for not more than twenty years.

24a
As Bell was sentenced to 20 years’ imprisonment
(with 8 years suspended) for each of his two Maryland
robbery convictions, he does not dispute that he was
therefore convicted under § 488.
Bell contends that despite the two distinctly numbered sections for simple and armed robbery, providing for two distinct punishments, Maryland nonetheless recognizes only one crime of robbery that can be
committed with de minimis force or with force directed solely against property, either of which would
disqualify it as a predicate offense under ACCA’s force
clause. To make his argument, he relies on statements made by the Maryland Court of Appeals that
have described the “dangerous or deadly weapon”
component of § 488 as a sentence enhancement for the
“single common law offense” of simple robbery, as opposed to an element of the distinct crime of armed robbery. E.g., Whack v. State, 416 A.2d 265, 266 (Md.
1980) (“In Maryland, robbery is a single common law
offense. Article 27, §§ 486 and 488, do not create separate statutory offenses but merely fix the penalties
for the one crime of robbery”); accord Grimes v. State,
429 A.2d 228, 231 (Md. 1981); but see Hagans v. State,
559 A.2d 792, 799 (Md. 1989) (noting that “armed robbery and basic robbery . . . [are], for some purposes . .
. regarded as separate offenses[,] with robbery being
the lesser included offense of armed robbery”); Sweetwine v. State, 421 A.2d 60, 61 n.1 (Md. 1980) (same).
Thus, Bell asserts that we cannot consider whether


Maryland repealed §§ 486 and 488 in 2002 but generally retained common law robbery and the substance of §§ 486 and 488
in a recodification. See Md. Code Crim. Law §§ 3-401(e) (providing that robbery “retains its judicially defined meaning,” with
certain enumerated exceptions), 3-402 (addressing simple robbery), 3-403 (addressing armed robbery); see also Spencer v.
State, 30 A.3d 891, 895 (Md. 2011).

25a
armed robbery by its elements satisfies the force
clause because it is subsumed within the “single . . .
offense” of simple common law robbery.
Despite what Whack and similar Maryland cases
have said, however, Maryland uniformly treats the
dangerous or deadly weapon component in § 488 as a
distinct element of a separate crime, as understood
under federal law. The Maryland courts have invariably required the “dangerous or deadly weapon” component to be pled in the indictment and proven to the
jury beyond a reasonable doubt. See Sweetwine, 421
A.2d at 61 n.1 (“[B]ecause armed robbery requires
proof of an additional element, the offenses are distinct”); Bynum v. State, 357 A.2d 339, 340–41 (Md.
1976) (noting separate counts in indictment for simple
and armed robbery); Battle v. State, 499 A.2d 200, 203
(Md. Ct. Spec. App. 1985) (“[T]he State must prove beyond a reasonable doubt, number one, that there was
a robbery, and number two, that it was committed
with the use of a deadly or dangerous weapon” (emphasis added) (quoting trial court’s jury instructions))); see also Wadlow v. State, 642 A.2d 213, 216
(Md. 1994) (“[R]obbery is ordinarily characterized as
one offense, with the division between armed robbery
and simple robbery being for the purpose of punishment, . . . but the charge must be specific and the determination of the seriousness of the offense is for the
trier of fact” (citing Hook v. State, 553 A.2d 233, 236
n.10 (Md. 1989)). And the Maryland pattern jury instructions — in the version applicable during the period when Bell was convicted — similarly made clear
that the use of a deadly weapon in a robbery is a separate element to be proved to the jury. Compare Md.
Crim. Jury Inst. & Comm., § 4.82 (1975) (simple robbery) with id. § 4.83 (armed robbery) (“In order for the
defendant to be found guilty of [armed robbery], the

26a
state must prove beyond a reasonable doubt: (1) that
there was a robbery; and (2) that it was committed
with the use of a deadly or dangerous weapon” (emphasis added)). Thus, while Maryland has described
§ 488 as providing for a sentencing enhancement
when a deadly weapon is used in a robbery, it has
treated the use of a weapon as a separate “element” as
that term is understood under federal law. “Elements,” after all, “are the ‘constituent parts’ of a
crime’s legal definition — the things the ‘prosecution
must prove to sustain a conviction.’” Mathis, 136 S. Ct.
at 2248 (quoting Black’s Law Dictionary 634 (10th ed.
2014)). And when § 488 applies, the defendant’s maximum sentence increases from 10 to 20 years’ imprisonment. See id. at 2256 (noting, for purposes of the
categorical approach, that “[i]f statutory alternatives
carry different punishments, then . . . they must be
elements [as opposed to means]”). Since the determination of whether an offense qualifies under ACCA’s
force clause is a question of federal law, we conclude
that § 488 defined a separate crime, with a separate
element and a separate punishment, distinct from
simple robbery, which was addressed in § 486.
Thus, the offense of armed robbery in Maryland
requires the prosecution to prove that the defendant
committed (1) “[a] felonious taking and carrying away
of the personal property of another from his person by
the use of violence or by putting in fear,” (2) while using a “dangerous or deadly weapon.” Williams, 490
A.2d at 1280; Md. Code, Art. 27 § 488 (repealed). And
for a weapon to qualify as “dangerous or deadly,” “the
instrument must be (1) designed as ‘anything used or
designed to be used in destroying, defeating, or injuring an enemy, or as an instrument of . . . combat’; (2)
under the circumstances of the case, immediately use-

27a
able to inflict serious or deadly harm . . . ; or (3) actually used in a way likely to inflict that sort of harm.”
Brooks v. State, 552 A.2d 872, 880 (Md. 1989) (quoting
Bennett v. State, 205 A.2d 393, 394 (Md. 1964)). With
these elements defined by state law, we readily conclude that, as a matter of federal law, the crime of
Maryland armed robbery “has as an element the use,
attempted use, or threatened use of physical force
against the person of another,” in the sense that the
force is “capable of causing physical pain or injury,”
Johnson, 559 U.S. at 140, and that therefore it is a
violent felony under 18 U.S.C. § 924(e).
Bell argues nonetheless that Maryland armed
robbery could be committed with only de minimis
force, proffering a hypothetical defendant who “uses
an axe to break into a store and then snatches merchandise from the shop owner’s hand” or who “use[s]
a knife to cut the victim’s purse strap [before]
yank[ing] it off her shoulder.” It is doubtful, to say the
least, that those hypotheticals would actually support
a conviction under § 488. But more importantly, Bell
does not identify any actual defendant from a Maryland case who has been prosecuted in such circumstances. Yet, in determining the “minimum conduct”
that satisfies a state offense, as the categorical approach requires, we must ensure “there is a ‘realistic
probability, not [just] a theoretical possibility,’ that a
State would actually punish that conduct.” United
States v. Gardner, 823 F.3d 793, 803 (4th Cir. 2016)
(quoting Moncrieffe v. Holder, 133 S. Ct. 1678, 1684–
85 (2013)).
Bell also argues that the force required to commit
Maryland armed robbery can be directed solely
against property, giving the example of a defendant
who uses a firearm “to threaten the victim’s dog or

28a
car,” thereby effecting a robbery of the victim without
threatening force against his person. In making this
argument, Bell relies on Giles v. State, 261 A.2d 806,
807 (Md. Ct. Spec. App. 1970) (stating that the “fear”
required to commit common law robbery “may be of
injury to the person or to property, as for example, a
threat to burn down a house” (emphasis added)), and
Douglas v. State, 267 A.2d 291, 295 (Md. Ct. Spec.
App. 1970) (same). In Giles, however, the court held
that there was sufficient evidence to support a finding
that the defendant had committed robbery through
“actual violence” directed at the victim’s person, given
that the victim had been “grabbed and pushed” during
a “tussl[e].” 261 A.2d at 808. And in Douglas, the
court affirmed the defendant’s robbery conviction for
holding up an office clerk, holding that there was no
error in a jury instruction stating that robbery by constructive force requires a “threat of violence,” rather
than “fear of great bodily harm,” as the defendant had
argued. 267 A.2d at 294–95. Thus, the actual holdings
in those cases — both of which addressed simple, not
armed robbery — hardly provide Bell with support.
Moreover, the dicta on which Bell relies have apparently never been repeated by any Maryland court in
the nearly five decades since Douglas and Giles were
decided.
More importantly, Bell’s hypothetical overlooks
the elements of armed robbery as defined by the Maryland Court of Appeals. To convict a defendant for
armed robbery, the State must prove that he committed (1) “[a] felonious taking and carrying away of the
personal property of another from his person by the
use of violence or by putting in fear,” (2) while using a
“dangerous or deadly weapon.” Williams, 490 A.2d at
1280 (emphasis added); Md. Code, Art. 27 § 488 (repealed); see also West v. State, 539 A.2d 231, 234 (Md.

29a
1988) (explaining that robbery requires “actual” or
“constructive” violence; that actual violence “implies
personal violence”; and that constructive violence is
that which “intimidat[es] or plac[es] the victim in
fear” (emphasis added) (citation omitted)); Spencer, 30
A.3d at 898 (“[W]hen considering whether there has
been a threat of force or intimidation,” a court must
“consider whether an ordinary, reasonable person under the circumstances would have been in fear of bodily harm” (emphasis added)); Snowden v. State, 583
A.2d 1056, 1059 (Md. 1991) (“Robbery is a . . . larceny
from the person accomplished by either an assault
(putting in fear) or a battery (violence)”). Accordingly,
Bell’s force-to-property hypothetical again does not
serve as a persuasive analysis of the elements of Maryland armed robbery. See Moncrieffe, 569 U.S. at 191
(reaffirming that the categorical approach’s “focus on
the minimum conduct criminalized by the State statute is not an invitation to apply ‘legal imagination’ to
the State offense” and that there instead “must be ‘a
realistic probability, not a theoretical possibility, that
the State would apply its statute to conduct that falls
outside the generic definition of a crime’” (citation
omitted)); Gonzales v. Duenas-Alvarez, 549 U.S. 183,
193 (2007) (explaining that to show the requisite “realistic probability,” an offender “must at least point to
his own case or other cases in which state courts in
fact did apply the statute in the special (nongeneric)
manner for which he argues”).
At bottom, we hold that Bell’s two Maryland convictions for robbery with a dangerous or deadly
weapon were “violent felon[ies]” as used in § 924(e),
and in doing so we join the other Courts of Appeals
that have considered this issue and reached the same
conclusion. See United States v. Redrick, 841 F.3d
478, 485 (D.C. Cir. 2016); United States v. Warren, 723

30a
F. App’x 155, 165 (3d Cir. 2018) (unpublished); see also
United States v. Segovia, 770 F.3d 351, 355 (5th Cir.
2014) (holding that Maryland armed robbery qualifies
under an identical force clause in U.S.S.G. § 2L1.2).
While we acknowledge that Bell also challenges
the district court’s finding under U.S.S.G. § 4B1.1 that
he qualified as a career offender by relying on his 1991
District of Columbia conviction for assault with a
deadly weapon, in view of our conclusion that Bell’s
480-month sentence was a statutory mandatory minimum sentence, any error in the career offender classification would not provide Bell with any relief. We
therefore do not reach the issue.
*

*

*

For the foregoing reasons, we affirm the judgment
of the district court.
AFFIRMED

31a
WYNN, Circuit Judge, dissenting:
After a jury convicted Defendant Quintin Antonio
Bell (“Defendant”) of several drug and firearms offenses, the U.S. District Court for the District of Maryland sentenced Defendant to what the court determined was the mandatory minimum of 480 months’
imprisonment. On appeal, Defendant lodges numerous challenges to his convictions and sentence, asserting, among other claims, that the district court (1) reversibly erred in admitting inculpatory statements
made by Defendant obtained in violation of his rights
under Miranda v. Arizona, 384 U.S. 436 (1966), and
(2) incorrectly imposed a mandatory minimum sentence under the Armed Career Criminal Act
(“ACCA”), 18 U.S.C. § 924(e)(1), based on Defendant’s
two prior Maryland armed robbery convictions. I
agree with both assertions.
My good colleagues in the majority conclude that
the district court properly rejected Defendant’s Miranda argument because Defendant did not make his
inculpatory statements in response to “interrogation”
by a law enforcement officer. Ante at 9–12. In particular, like the district court, my colleagues conclude
that because the law enforcement officer testified that
he intended to direct the question to which Defendant
responded to Defendant’s wife—who was seated “in
close proximity” to Defendant when the officer asked
the question—Defendant was not subject to “express
questioning,” therefore rendering Miranda inapplicable. But, under Miranda, our assessment of whether
Defendant was subject to “interrogation” must be analyzed from the perspective of Defendant, not the officer who questioned Defendant. Therefore, as explained below, the district court erred by treating as
dispositive the officer’s testimony that he intended to,

32a
and did in fact, direct the question to Defendant’s
wife.
Additionally, regarding Defendant’s sentence, my
colleagues in the majority conclude that Defendant’s
prior Maryland armed robbery convictions had “as an
element the use, attempted use, or threatened use of
physical force against the person of another,” as Section 924(e)(1) requires, notwithstanding that Maryland appellate decisions, which remain good law, provide that armed robbery can be committed solely by
use or threatened use of force against property. See,
e.g., Giles v. State, 261 A.2d 806, 807 (Md. Ct. Spec.
App. 1970). The majority opinion disregards those
state court decisions on grounds that the discussion of
threats against property amounted to “dicta” and
that, under Maryland law, armed robbery typically involves violence against persons. Ante at 27–29. But
this Court and other courts routinely rely on dicta
from state court opinions in determining whether a
state offense constitutes a predicate offense for purposes of the ACCA. And this Court has held that
when a state offense allowed for conviction solely
based on harm to property, the offense did not constitute a crime of violence, even though state law established that the offense was “primar[il]y” intended to
protect persons.
See United States v. ParralDominguez, 794 F.3d 440, 445–46 (4th Cir. 2015).
Therefore, as explained below, the district court erred
regarding Defendant’s sentence.
Regarding the resolution of these issues by the
majority opinion, I respectfully dissent.1

1

I concur in the majority opinion’s judgment that the district
court did not abuse its discretion in admitting certain evidence
under Federal Rule of Evidence 404(b). Ante at 14–17. That rule

33a

provides that “[e]vidence of a crime, wrong, or other act is not
admissible to prove a person’s character in order to show that on
a particular occasion the person acted in accordance with the
character,” but that such evidence may nonetheless be admissible for other purposes, “such as proving motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake,
or lack of accident.” Fed. R. Evid. 404(b).
Here, the district court did not abuse its discretion in concluding that the testimony regarding Defendant’s August 25,
2014, arrest, search, and interrogation in Washington, D.C., because there was an adequate factual basis to conclude that the
conduct at issue in that arrest was “part of single criminal episode,” United States v. Chin, 83 F.3d 83, 87–88 (4th Cir. 1996),
and was “necessary to complete the story of the crime at trial,”
United States v. Siegel, 536 F.3d 306, 316 (4th Cir. 2008) (internal quotation marks omitted). Most notably, as the majority
opinion correctly emphasizes, that the officers found plastic baggies, some of which contained drugs, with the same green dollar
sign and blue devil markings in both searches, indicating that
both arrests were part of the same series of transactions. Moreover, the two searches of Defendant’s home were in close temporal
proximity to his arrest.
In rendering its judgment, the majority opinion characterizes Rule 404(b) as “a rule of inclusion.” Ante at 14. To be sure,
this Court has characterized Rule 404(b) as “a rule of inclusion.”
United States v. Hall, 858 F.3d 254, 276–77 (4th Cir. 2017). We
have done so to make clear that Rule 404(b)’s “list of proper purposes is not exhaustive.” Id. at 266, 277 (citing United States v.
Queen, 132 F.3d 991, 994–95 (4th Cir. 1997). “That characterization does not displace the longstanding rule”—which predates
the Queen decision referenced by the majority opinion—“that
prior ‘bad act’ evidence is ‘generally inadmissible.’” Hall, 858
F.3d at 277 (emphasis added) (quoting United States v. McBride,
676 F.3d 385, 395 (4th Cir. 2012)). Accordingly, the majority
opinion should not—and cannot—be read as holding that other
bad acts evidence is presumptively admissible. See McMellon v.
United States, 387 F.3d 329, 333 (4th Cir. 2004) (en banc) (“When
published panel opinions are in direct conflict on a given issue,
the earliest opinion controls, unless the prior opinion has been
overruled by an intervening opinion from the court sitting en
banc or the Supreme Court.”).

34a
I.
First, the district court erred in refusing to suppress statements Defendant made while in custody, in
violation of his Fifth Amendment rights as protected
by the prophylactic rule in Miranda v. Arizona, 384
U.S. 436, 444 (1966). Miranda requires “law enforcement to inform individuals who are [1] in custody of
their Fifth Amendment rights prior to [2] interrogation.” United States v. Hashime, 734 F.3d 278, 282
(4th Cir. 2013). “We review the factual findings underlying a motion to suppress for clear error and the
district court’s legal determinations de novo. When a
suppression motion has been denied, this Court reviews the evidence in the light most favorable to the
government.” Id. (quotation omitted).

(Continued)
I further concur in the majority opinion’s judgment that the
district court did not abuse its discretion by refusing to compel
the government to disclose the identity of a confidential informant. Ante at 17–20. In rendering its judgment, the majority opinion states that “[t]he district court denied [Defendant’s] motion
because [Defendant] failed to meet his ‘heavy burden to demonstrate the need for identification,’ as would allow him to pierce
the informer’s privilege.” Ante at 18. The majority opinion’s reference to a “heavy burden” simply quotes the district court’s
opinion, it does not state—much less establish—the standard applied by the Supreme Court or this Court in reviewing motions
to compel identification of a confidential informant. Id. As the
majority opinion correctly states, that standard is governed by
the balancing test set forth in Roviaro v. United States, 353 U.S.
53, 59 (1957), and applied by this Court in United States v. Gray,
47 F.3d 1359, 1364–65 (4th Cir. 1995). Neither Roviaro nor Gray
characterize a Defendant’s burden in propounding such a motion
as “heavy.”

35a
A.
In ruling on Defendant’s suppression motion, the
district court principally relied on the testimony of
Bureau of Alcohol, Tobacco, & Firearms Special Agent
Frank Oliver, which the court found credible. On
April 20, 2014—after a Prince George’s County Emergency Services Team had “clear[ed] [Defendant’s]
home, ma[d]e sure it [wa]s safe,” and accounted for all
individuals—Special Agent Oliver entered Defendant’s home to execute a “no knock” search warrant for,
among other things, firearms and drugs. J.A. 265,
272. Special Agent Oliver sought and obtained a “no
knock” search warrant so as to surprise Defendant
and thereby render him in “a state of confusion that
w[ould] eliminate the possible use of a firearm.” J.A.
61. Special Agent Oliver entered directly into the
home’s living room, where he found Defendant’s wife
seated handcuffed in a chair. Emergency Services
Team members then brought Defendant, who also
was handcuffed, into the living room as well. Defendant was placed in another chair in the living room,
which Special Agent Oliver testified was “in close
proximity” to the chair in which Defendant’s wife was
seated. J.A. 278, 282.
Without advising Defendant of his Fifth Amendment rights, Special Agent Oliver then informed Defendant’s wife of the search warrant and “asked her if
there [were] any weapons or anything that would hurt
an officer.” J.A. 266. According to Special Agent Oliver’s testimony, when he asked that question, he “directed” the question to Defendant’s wife, “looking at
her in the eye.” J.A. 282. Special Agent Oliver did not
preface either the statement or the question by stating
Defendant’s wife’s name or instruct only her to answer. J.A. 282–83. Immediately after Special Agent

36a
Oliver asked the question, Defendant “spoke up and
said there as a gun under the couch.” J.A. 391; see also
J.A. 267. Defendant further stated that a “friend had
given him the gun because somebody had tried to
break into the house and rob him.” J.A. 268.
Defendant moved to suppress his statements regarding the gun—a Mini-14 Ruger .223 caliber rifle
that served as the basis of Defendant’s firearms convictions—under Miranda. The parties agreed—and
the district court concluded—that Defendant was “in
custody” for purposes of Miranda when he made the
statements. The parties disagreed, however, as to
whether Defendant was subject to “interrogation” for
purposes of Miranda when he made the statements
regarding the gun. Ruling from the bench, the district
court held that Defendant “was not being interrogated” when he made the statements. J.A. 392. The
district court’s entire explanation for that legal conclusion is as follows:
Regarding the April 10, 2014 statement in the
house, defendant’s primary argument is that
the question regarding firearms in the house
was actually directed at him and not his wife.
I do credit, as a factual matter and as a legal
matter, Agent Oliver’s testimony that he did
direct the question at Ms. Bell and that the
defendant then volunteered an answer.
Id.
B.
In Rhode Island v. Innis, the Supreme Court held
that a person is subject to “interrogation” for purposes
of Miranda “whenever a person in custody is subject
to either express questioning or its functional equivalent.” 446 U.S. 291, 301 (1980) (emphasis added); see

37a
also id. (“[T]he term ‘interrogation’ under Miranda
refers not only to express questioning, but also to any
words or actions on the part of the police . . . that the
police should know are reasonably likely to elicit an
incriminating response from the suspect.” (emphasis
added)). Innis made clear that “express questioning”
and the “functional equivalent” of express questioning
constitute distinct “prong[s]” of the interrogation inquiry. Id. at 302; see also Smiley v. Thurmer, 542 F.3d
574, 582 (7th Cir. 2008) (“It is clear from the language,
facts and context of Innis, that the Supreme Court defined interrogation as (1) express questioning; or (2)
its functional equivalent.”); United States v. Brown,
720 F.2d 1059, 1067 (9th Cir. 1983) (“[U]nder Innis,
interrogation within Miranda’s requirements applies
(1) to express questioning or (2) to the ‘functional
equivalent’ thereof.”).
Although Innis did not expand upon what constitutes “express questioning”—perhaps because that
“prong” of the interrogation inquiry was not at issue
in the case, 446 U.S. at 302—the Supreme Court did
go into greater depth regarding the “functional equivalent” prong. That prong encompasses “any words or
actions on the part of the police (other than those normally attendant to arrest and custody) that the police
should know are reasonably likely to elicit an incriminating response from the suspect.” Id. at 301. Importantly, that inquiry “focuses primarily upon the
perceptions of the suspect, rather than the intent of the
police.” Id. (emphasis added).
Following Innis, lower courts—including this
Court—have concluded that Innis likewise requires
that courts assess whether a defendant was subject to
“express questioning” from the perspective of the suspect, and not based on the subjective intent of the law

38a
enforcement officer engaged in the questioning. For
instance, relying on Innis’s discussion of the “functional equivalent” prong, the District of Columbia Circuit held that the determination of whether an individual was subjected to express questioning “is an objective inquiry; the subjective intent of the officer is
relevant but not dispositive.” United States v. Bogle,
114 F.3d 1271, 1275 (D.C. Cir. 1997) (emphasis
added); see also United States v. Johnson, 734 F.3d
270, 276 (4th Cir. 2013) (examining whether “express
questioning” amounted to Miranda interrogation
from the “suspect’s point of view”); United States v.
Cowan, 674 F.3d 947, 958 (8th Cir. 2012) (“A question
is an interrogation if it is reasonably likely to elicit incriminating information.” (internal quotation marks
omitted)); United States v. Allen, 13 F.3d 105, 109 (4th
Cir. 1993) (relying on Innis’s objective test to determine whether “express questioning” constituted interrogation for purposes of Miranda). Put differently,
“the test for determining whether a suspect was subjected to interrogation is whether a reasonable objective observer would believe an officer’s express questioning [was] reasonably likely to elicit an incriminating response.” United States v. Johnson, 680 F.3d 966,
976 (7th Cir. 2012) (internal quotation marks and alterations omitted), overruled on other grounds by
Fowler v. Butts, 829 F.3d 788 (7th Cir. 2016). “The
focus is on the suspect’s perceptions rather than the
intent of the police.” Id. (emphasis added).
The extension of Innis’s objective, suspect-focused
inquiry to the express questioning prong makes sense.
Innis explained, for example, that the interrogation
inquiry focuses on the “perceptions of the suspect, rather than the intent of the police” because “the Miranda safeguards were designed to vest a suspect in
custody with an added measure of protection against

39a
coercive police practices, without regard to objective
proof of the underlying intent of the police.” 446 U.S.
at 301. That rationale is no less applicable to an express question than it is to the functional equivalent
thereof.
That is particularly true in circuits, like this circuit, which recognize the possibility that a suspect can
face “express questioning” without being subject to
“interrogation” for purposes of Miranda, if the questions “are not reasonably likely to elicit incriminating
responses.” Johnson, 734 F.3d at 276. But see Smiley,
542 F.3d at 583 (holding that because the defendant
was subject to “express questioning,” the lower court
should not have considered whether question was reasonably likely to elicit an incriminating response). If,
as this Court holds, a defendant can be exempted from
Miranda’s protections on grounds that the express
questions he faced were “not reasonably likely to elicit
incriminating responses,” Johnson, 734 F.3d at 276—
Innis’s test for whether police action amounts to the
functional equivalent of express questioning—then
Innis requires that the express questioning assessment be made from the suspect’s perspective.
Because whether a suspect was subject to express
questioning must be examined from the perspective of
the suspect, the district court committed legal error in
denying Defendant’s motion to suppress his un-Mirandized inculpatory statements.
The district court rested its decision entirely on
“Agent Oliver’s testimony that he did direct the question at Ms. Bell,” not at Defendant. J.A. 392. But nowhere in the district court’s oral ruling, or its earlier
oral factual findings, did the district court consider
the relevant question: whether a reasonable suspect

40a
in Defendant’s position would have believed that Special Agent Oliver’s question was directed at Defendant. Notably, the district court failed to address that
dispositive question, even though Defendant’s counsel
repeatedly argued that the court should do so. See,
e.g., J.A. 337–38 (arguing that “[i]t really doesn’t even
matter as to what Agent Oliver’s subjective intent
was” because Defendant “took the question [as] being
addressed to him reasonably and answered in response.”).
That legal error is significant because the factual
record includes evidence that could allow a factfinder
to conclude that a reasonable suspect in Defendant’s
position would have believed that the question was directed at him. In particular, as my colleagues in the
majority acknowledge, at the time of the questioning
Defendant “was seated in ‘another chair off to the
right, behind [his wife’s] chair,’ and the two chairs
were ‘in close proximity’ to each other.” Ante at 9.
Even though Special Agent Oliver intended to—and,
according to his unrebutted testimony, did in fact—
direct the question to Defendant’s wife, a person
seated directly “behind” and “in close proximity” to
Defendant’s wife, as Defendant was, may have reasonably believed that Special Agent Oliver was directing the question to him or to both he and his wife.
For the same reason, a factfinder could conclude
that an officer in Special Agent Oliver’s position
“should have known” that directing a question at Defendant’s wife, when Defendant was seated directly
“behind” and “in close proximity” to her, was “reasonably likely to elicit an incriminating response” from
Defendant. Innis, 446 U.S. at 302. That is particularly true given that Special Agent Oliver (1) testified
that he did not preface either his initial statement

41a
about the search warrant or the question regarding
weapons by stating Defendant’s wife’s name, nor did
he instruct only her to answer, and (2) obtained a “no
knock” warrant so as to place Defendant in a “state of
confusion” at the time of the questioning. J.A. 61. Put
differently, Special Agent Oliver’s testimony in no
way precludes a finding that a reasonable person in
Defendant’s position would have believed that the
question was directed at him—the dispositive issue
never addressed by the district court.
That Special Agent Oliver’s question—whether
“there [were] any weapons in the house”2—was “directly relevant to the substantive offense charged”
2

At several points the majority opinion emphasizes that the
question was “relating to officer safety.” Ante at 9, 12. Whether
Special Agent Oliver’s intent in asking the question was to protect the safety of the officers searching the residence does not
resolve whether the question amounted to interrogation for purposes of Miranda—an inquiry that “focuses primarily upon the
perceptions of the suspect, rather than the intent of the police.”
Innis, 446 U.S. at 301 (emphasis added).
To be sure, Miranda’s “public safety exception” permits law
enforcement officers to ask questions, without giving Miranda’s
prophylactic warnings, if doing so is necessary to protect the officers or the public from immediate danger. See United States v.
Mobley, 40 F.3d 688, 692 (4th Cir. 1994). This Court has held
that the public safety exception “must be construed narrowly”
and “applies only where there is ‘an objectively reasonable need
to protect the police or the public from an immediate danger associated with [a] weapon.’” Id. at 693 (emphasis added) (quoting
New York v. Quarles, 467 U.S. 649, 659 n.8 (1984)).
Tellingly, the majority opinion does not uphold the district
court’s separate conclusion that Defendant’s statements were admissible under the public safety exception. J.A. 393. For good
reason; this case is on all fours with Mobley, in which this Court
declined to apply the public safety exception. There, law enforcement officers executed a search warrant at the defendant’s apartment. Mobley, 40 F.3d at 690. After the officers had completed a

42a
provides further evidence that the question was “reasonably likely to elicit incriminating information,”
and therefore constituted interrogation for purposes
of Miranda. Cowan, 674 F.3d at 958 (internal quotation marks omitted); see also, e.g., United States v.
Williams, 227 Fed. App’x 307, 311 (4th Cir. 2007)
(holding that question amounted to “interrogation” for
purposes of Miranda when law enforcement officer
“should have known that any response to his questions would likely implicate [the defendant] in the” offense under investigation).
Here, Special Agent Oliver was investigating Defendant for drug and firearms offenses and expressly
sought and obtained a warrant to seize any firearms
found in his search of the residence. Accordingly, contrary to the majority opinion’s conclusion, Special
Agent Oliver’s question was “directly relevant to the
substantive offense charged,” Cowan, 674 F.3d at 958,

“security sweep” of the apartment and placed the defendant under arrest, the officers asked the defendant “if there was anything in the apartment and specifically any weapons that were
in the apartment that could be of danger to the agents” who were
conducting the search. Id. at 690–91. This Court concluded that,
under these facts, the government failed to demonstrate “an ‘immediate need’ that would validate” application of the public
safety exception. Id. at 693.
Like in Mobley, when Special Agent Oliver asked the question regarding weapons, the Emergency Services Team had finished performing their protective sweep and Defendant and his
wife were handcuffed and under the control of the officers. Accordingly, without endangering themselves or others, the law enforcement officers could have advised Defendant of his Miranda
rights before asking if there were any dangerous objects in the
homes. Therefore, there was no “immediate need” warranting application of the public safety exception.

43a
and therefore reasonably “likely to elicit from [Defendant] a statement implicating himself in the illegal
possession of a firearm,” ante at 12.
Significantly, even if it were appropriate for this
Court to independently review the record to determine
whether a reasonable person in Defendant’s position
would have believed the question was directed at him,
we cannot do so because the record on appeal omits a
crucial piece of evidence bearing on that question.
During cross-examination, defense counsel presented
Special Agent Oliver with a diagram of the room in
which the questioning occurred. At defense counsel’s
request, Special Agent Oliver made “X” marks on the
diagram to indicate in which chairs Defendant and his
wife were seated and where those chairs were located
in the room. That marked diagram is not part of the
record on appeal, nor was it preserved by the district
court.
Additionally, during oral argument on the suppression motion—which occurred more than a week
after Special Agent Oliver’s testimony—the district
court expressed confusion regarding where, exactly,
Defendant and his wife were seated relative to each
other. J.A. 359 (“I looked back in my notes and, even
then, I wasn’t hundred percent sure [i]n terms of who
is seated where at the time the question is being
asked.”). The record includes no indication that the
district court ever resolved that uncertainty, which
bears directly on whether Defendant reasonably believed, based on his proximity relative to his wife, that
the question was directed at him. In such circumstances, this Court should, at a minimum, remand the
case to the district court to determine whether, under

44a
the proper legal standard, Defendant’s inculpatory
statements should have been suppressed.3
II.
I also disagree with my colleagues’ conclusion that
Defendant’s two 1985 Maryland convictions for “robbery with a deadly weapon” qualified as predicate convictions supporting enhancement of Defendant’s sentence Section 924(e) of the ACCA. “[W]e review de
novo the question whether his prior state convictions
qualified as predicate felony convictions for purposes
of a federal sentence enhancement.” United States v.
Gardner, 823 F.3d 793, 801 (4th Cir. 2016) (internal
quotation marks and alterations omitted).
The ACCA subjects a defendant to substantial
mandatory minimum sentences if the defendant has
3
After concluding that Special Agent Oliver did not expressly
question Defendant, the majority opinion further concludes that
Defendant was not subjected to the “functional equivalent” of express questioning. Ante at 12–13. In particular, the majority
opinion states “[i]t can hardly be said that overhearing a single
question posed to one’s spouse creates the necessary level of compulsion without more” to amount to the functional equivalent of
express questioning. Id. at 13. The majority opinion offers no legal authority in support of this assertion, nor does the majority
opinion examine the coerciveness of the questioning from Defendant’s perspective, as Innis requires. 446 U.S. at 301. And one
can easily imagine situations in which law enforcement officers
directing questions at a suspect’s spouse or other family member
would be “reasonably likely to elicit an incriminating response
from the suspect.” Innis, 446 U.S. at 301.
Additionally, the majority opinion errantly treats the district court’s assertion that Defendant “‘volunteered’ his answer”
as relevant to the Miranda inquiry, notwithstanding that the Supreme Court has held that “Miranda’s procedural safeguards exist precisely because the voluntariness test is an inadequate barrier when custodial interrogation is at stake.” J.D.B. v. North
Carolina, 564 U.S. 261, 281 (2011).

45a
three prior convictions for “violent felon[ies].” 18
U.S.C. § 924(e)(1) The ACCA’s “force clause” provides,
in pertinent part, that a crime is a “violent felony” if
it “has as an element the use, attempted use, or
threatened use of physical force against the person of
another.” § 924(e)(2)(B)(i). Only “violent force—that
is, force capable of causing physical pain or injury to
another person”—satisfies the “physical force requirement.” Johnson v. United States, 559 U.S. 133, 140
(2010). In determining whether a prior offense constitutes a violent felony for purposes of the force clause,
we apply the “categorical approach,” under which we
“must determine whether the state crime of conviction
by its elements”—i.e. not under the particular facts underlying a defendant’s prior conviction—necessarily
“involves the ‘the use, attempted use, or threatened
use of physical force against the person of another.’”
United States v. Reid, 861 F.3d 523, 527 (4th Cir.
2017). We look to state law to make that determination. Gardner, 823 F.3d at 803. In engaging in that
analysis, we first look to decisions of the State’s highest court, with decisions of a State’s intermediate appellate court “constitut[ing] the next best indicia of
what state law is.” Id. (quoting Castillo v. Holder, 776
F.3d 262, 268 & n.3 (4th Cir. 2015)).
Defendant argues that his two 1985 Maryland
convictions for armed robbery do not constitute “violent felonies” because, under Maryland law, a defendant can commit armed robbery through use or threatened use of violent force solely against property, and
therefore that the offense does not categorically require use of force “against the person of another,” as
Section 924(e)(2)(B)(i) requires. In an analogous context, this Court held that when an offense can be committed through use or threatened use of violence
against property alone, then the offense does not fall

46a
within language identical to that of the force clause.
Parral-Dominguez, 794 F.3d at 445.
Under Maryland common law, to convict a defendant of armed robbery, the State must prove that the
defendant (1) committed simple “robbery” while (2)
using a “dangerous or deadly weapon.” Williams v.
State, 490 A.2d 1277, 1280 (Md. 1985). Simple robbery is “the felonious taking and carrying away of the
personal property of another from his person by the
use of violence or by putting in fear.” Id. (emphasis
added). In two opinions, an intermediate Maryland
appellate court held that the “fear” element of simple
robbery may be satisfied by “fear . . . of injury to the
person or to property, as for example, a threat to burn
down a house.” Giles, 261 A.2d at 807–08 (emphasis
added); Douglas v. State, 267 A.2d 291, 295 (Md. App.
1970) (“That the fear be of great bodily harm is not a
requisite. Nor need the fear be of bodily injury at all.”
(emphasis added)). Neither of those holdings has been
overturned. In a separate case, the Government conceded that, under Giles and Douglas, simple robbery—a constituent element of armed robbery—did
not constitute a crime of violence because it encompassed “threats against property,” not simply “against
the person of another,” as the force clause requires.
United States v. Baten, No. 04-CR-0256, Docket No.
23 (D. Md. Nov. 16, 2015).
Notwithstanding its prior concession as to simple
robbery, the Government now argues—and the majority opinion agrees, ante at 28—that Giles’s and Douglas’s statements that robbery can be accomplished by
threats to property are not dispositive because neither
case involved a threat to property, rendering the
statements dicta. But neither the Government nor

47a
the majority opinion identifies any controlling authority holding that we should disregard dicta in ascertaining whether a state law constitutes a crime of violence.
To the contrary, this Court and other Circuits previously have relied on dicta in state court opinions in
determining whether a state offense crime was a “violent felony” for purposes of the ACCA. For example,
in United States v. Aparicio-Soria, 740 F.3d 152 (4th
Cir. 2014) (en banc), this Court expressly relied on
dicta in determining whether a state offense categorically constituted a “crime of violence” for purposes of
the sentencing guidelines, id. at 157-58 & n.4; see also
id. at 164 (Wilkinson, J., dissenting) (noting that language in state opinion relied on by majority was
dicta). Other circuits have taken the same approach.
See, e.g., United States v. Vail-Bailon, 868 F.3d 1293,
1304 (11th Cir. 2017) (relying on dicta in state court
opinion in determining whether state offense was
“crime of violence”); id. at 1322 (Rosenbaum, J. dissenting) (noting that state decision relied on by majority was dicta); United States v. Smith, 582 F. App’x
590, 596 & n.5 (6th Cir. 2014) (relying on dicta in state
court opinion in determining whether North Carolina
common law robbery was a crime of violence because
courts should “defer to the North Carolina Supreme
Court on the interpretation of North Carolina law”),
vacated on other grounds 135 S. Ct. 2930 (2015).
Accordingly, that the language in Giles and Douglas was dicta in no way bars this Court from considering it in determining whether Maryland armed robbery constitutes a violent felony under the ACCA’s
force clause. Indeed, because Giles and Douglas remain good law, lower Maryland courts are bound to
convict a defendant of robbery if the defendant solely

48a
threatens the victim’s property, not his person. In
such circumstances, it makes no sense to disregard
Giles’s and Douglas’s description of the fear element
as dicta.
Notwithstanding the express language in Giles
and Douglas, my colleagues in the majority rely upon
the supposed silence of two Maryland appellate decisions post-dating Defendant’s convictions that describe the “fear” element of robbery without reference
to threats to property. Ante at 28-29 (citing Spencer
v. State, 30 A.3d 891, 898 (Md. 2011) and Snowden v.
State, 583 A.2d 1056, 1059 (Md. 1991)). But Spencer
and Snowden involved defendants who threatened or
inflicted bodily harm, meaning that neither court
needed to consider the standard for putting a victim
in fear through harming or threatening to harm property. Spencer, 30 A.3d at 893; Snowden, 583 A.2d at
1057. And neither opinion addressed whether harm
to property could satisfy the “fear” element, much less
overruled Giles’s and Douglas’s earlier unambiguous
statements that threats to property could satisfy that
element. Additionally, both opinions post-date Defendant’s conviction, meaning that the could not have
implicitly abrogated, much less overruled, Giles and
Douglas at the time of Defendant’s conviction.
The majority opinion also relies on a Maryland
Court of Appeals decision that post-dates Defendant’s
convictions: West v. State, 583 A.2d 231 (Md. 1988).
But, if anything, West supports Defendant’s contention that a defendant can be convicted of armed robbery without using or threatening to use violent force
against the person of another. In particular, West
holds that a defendant can be convicted of robbery
based on the application of “constructive” force “by intimidation or placing the victim in fear.” Id. at 234. As

49a
Giles explains, a defendant can place a victim in fear
by
threatening
the
victim’s
property—e.g.,
“threat[ening] to burn down a house”—without ever
applying physical force against the person of the victim, as the force clause demands. Giles, 261 A.2d at
807–08. That, in such a case, the victim is in fear that
violent force will be applied against his property in no
way establishes that his person was subject to “force
capable of causing physical pain or injury,” as the
force clause requires. See Johnson, 559 U.S. at 140.
Accordingly, contrary to the majority opinion’s suggestion, West is entirely consistent with Giles and
Douglas.
That Defendant committed armed, as opposed to
simple, robbery also does not change this conclusion.
The majority opinion implies that this Court should
not treat Maryland armed robbery as a violent felony
because there is not a “realistic probability”—but rather only a “theoretical possibility”—that a suspect
can commit armed robbery by harming or threatening
to harm property. See ante at 29 (quoting Moncrieffe
v. Holder, 569 U.S. 184, 191 (2013)).
Even assuming it is possible to draw an enforceable line between a “realistic probability” and “theoretical possibility”—which the majority opinion makes
no effort to do—it takes little “legal imagination” to
conceive of how a defendant could use a weapon to inflict or threaten harm to a victim’s property without
threatening the victim’s person. Moncrieffe, 569 U.S.
at 191. Maryland courts already have expressly provided an example: “threat[ening] to burn down a
house.” Giles, 261 A.2d at 807–08. And there are numerous cases in which other courts have recognized
that a suspect can commit robbery or armed robbery,
under legal frameworks materially indistinguishable

50a
from Maryland common law armed robbery, by
threatening a victim’s property as opposed to his person. See, e.g., United States v. O’Connor, 874 F.3d
1147, 1154 (10th Cir. 2017) (holding that Hobbs Act
robbery constitutes violent felony because for example, a suspect could commit a Hobbs Act robbery by
saying to a victim, “If you don’t give me $1 million, I
won’t hurt you, but I’ll blow up an empty building you
own”); U.S. v Becerrill-Lopez, 541 F.3d 881, 891 (9th
Cir. 2008) (holding that defendant could be convicted
of violating California robbery statute by making
“mere threats to property, such as ‘Give me $10 or I’ll
key your car’ or ‘Open the cash register or I’ll tag your
windows’”); People v. Gallegos, 563 P.2d 937, 938
(Colo. 1977) (en banc) (holding defendant committed
attempted “robbery by threat” when defendant
“threat[ened] to blow up a Greeley business unless its
owner paid him $100”).
Importantly, none of the three opinions of our sister circuits concluding that Maryland robbery constitutes a violent felony under the force clause or statutory language similar thereto are binding on this
Court. See ante at 29–30 (citing United States v. Redrick, 841 F.3d 478, 485 (D.C. Cir. 2016); United
States v. Warren, 723 Fed. App’x 155, 165 (3d Cir.
2018) (unpublished); United States v. Segovia, 770
F.3d 351, 355 (5th Cir. 2014)). Indeed, none of the
three opinions is persuasive.
Redrick principally ignored the harm-to-property
language in Giles and Douglas on grounds that that
language was dicta. 841 F.3d at 485. But, as explained above, in this Circuit, we have held, for good
reason, that dicta should be considered in determining
whether a prior offense constitutes a violent felony.
See Aparicio-Soria, 740 F.3d at 157-58 & n.4. Redrick

51a
also relies on an intermediate Maryland appellate
court decision—which post-dates both of Defendant’s
convictions—defining assault, which it characterizes
as a constituent element of robbery, as the attempted
or actual application of force “to the body of the victim.” 841 F.3d at 485 (quoting Lamb v. State, 613 A.2d
402, 446 (Md. App. 1992)). But unlike Giles and Douglas, which expressly dealt with robbery, robbery was
not at issue in Lamb, meaning that Lamb could not
have abrogated Giles’s and Douglas’s statement that
the fear element for robbery encompasses harm or
threats to property. Given this material distinction,
it is unsurprising that the majority opinion does not
embrace this aspect of Redrick’s reasoning.
Warren disregarded the harm-to-property language in Giles and Douglas on grounds that those decisions were issued by an “intermediate-appellate
court” and therefore were “not binding.” 723 Fed.
App’x at 164. But we have held in this Circuit that
when, as here, there is an absence of authority from a
state’s highest court, this Court follows the decisions
of intermediate state appellate courts unless we are
“convinced by other persuasive data that the highest
court of the state would decide otherwise.”
Castillo, 776 F.3d at 268 n.3 (internal quotation
marks omitted). And neither the Government nor the
majority opinion points to language in any opinion by
the Maryland Court of Appeals indicating that Giles’s
and Douglas’s characterization of the fear element as
encompassing threats to property no longer remains
good law. Perhaps for this reason, the majority opinion declines to rely on any aspect of Warren’s reasoning.

52a
Finally, Segovia never mentions Giles or Douglas,
much less examines whether harm or threats to property satisfy the fear element, and therefore is even
less persuasive. 770 F.3d at 355.
III.
In sum, the majority opinion follows the district
court’s legal error by analyzing Defendant’s Miranda
argument from the perspective of the law enforcement
officer, not the suspect. And the majority opinion incorrectly holds that Maryland armed robbery categorically constitutes a violent felony for purposes of the
ACCA.
Accordingly, I respectfully dissent.

53a

APPENDIX B
United States District Court
District of Maryland
UNITED STATES OF
AMERICA

JUDGMENT IN A
CRIMINAL CASE
(For Offenses Committed on or After November 1, 1987)

v.

Case Number: GJH-814-CR-00531-001

QUINTIN ANTONIO
BELL

USM Number: N/A
Defendant’s Attorney:
Michael Citaramanis,
AFPD
Assistant U.S. Attorney:
Michael Packard and
Daniel Gardner

THE DEFENDANT:
 pleaded guilty to count(s) _________
 pleaded nolo contendere to count(s) _________,
which was accepted by the court.
 was found guilty on count(s) 1,2,3 and 4 of the Indictment after a plea of not guilty

54a

Title &
Section
Title 21
U.S.C.
Section
841(a)(1)

Nature of
Offense
Possession with
intent to Distribute Controlled
Substances (100
Grams or more)

Date
Offense
Concluded
April 10,
2014

Count
Number(s)
1

The defendant is adjudged guilty of the offenses
listed above and sentenced as provided in pages 2
through 7_ of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984 as
modified by United States v. Booker, 543 U.S. 220
(2005).
 The defendant has been found not guilty on count(s)
_______
 Count(s) ________ (is)(are) dismissed on the motion
of the United States.
IT IS FURTHER ORDERED that the defendant
shall notify the United States Attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs,
and special assessments imposed by this judgment
are fully paid.
May 2, 2016
Date of Imposition of Judgment
/s/George J. Hazel____________
George J. Hazel
United States District Judge
Name of Court Reporter: Linda Marshall

5/5/2016_
Date

55a
DEFENDANT:

QUINTIN ANTONIO BELL

CASE NUMBER:

GJH-8-14-CR-00531-001

ADDITIONAL COUNTS OF CONVICTION

Title &
Section
Title 21
U.S.C.
Section
841(a)(1)

Title 18
U.S.C.
Section
922(g)(1)
Title 18
U.S.C.
Section
924©(1)
(A)(i)

Nature of Offense
Possession
with intent to
Distribute
Controlled
Substances
(Heroin)
Felon in possession of a
Firearm
Possession of a
Firearm in
Furtherance of
a Drug Trafficking Crime

Date Offense
Concluded
August 29,
2014

Count
Number(s)
2

April 10,
2014

3

April 10,
2014

4

56a
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be imprisoned for a total term of 480 months (180 months as to
Counts 1,2 and 3 to run concurrent to each other; 300
months as to Count 4 to run consecutive to Counts 1,2
and 3 of the Indictment).
 The court makes the following recommendations
to the Bureau of Prisons:
That the defendant participate in any substance
abuse program for which he may be eligible.
That the defendant be designated to the FCI at (1)
Allenwood, PA or (2) Schuykill, PA, for service of
his of sentence based on convenience for family visits.
 The defendant is remanded to the custody of the
United States Marshal.
 The defendant shall surrender to the United
States Marshal for this district:
 at _____ a.m./p.m. on _______.
 as notified by the United States Marshal.
 The defendant shall surrender, at his/her own expense, to the institution designated by the Bureau
of Prisons at the date and time specified in a written notice to be sent to the defendant by the United
States Marshal. If the defendant does not receive
such a written notice, defendant shall surrender to
the United States Marshal:
 before 2 p.m. on ______.

57a
A defendant who fails to report either to the designated institution or to the United States Marshal as directed shall be subject to the penalties
of Title 18 U.S.C. §3146. If convicted of an offense while on release, the defendant shall be
subject to the penalties set forth in 18 U.S.C.
§3147. For violation of a condition of release,
the defendant shall be subject to the sanctions
set forth in Title 18 U.S.C. §3148. Any bond or
property posted may be forfeited and judgment
entered against the defendant and the surety in
the full amount of the bond.
RETURN
I have executed this judgment as follows:
Defendant delivered on _______ to _____ at _____,
with a certified copy of this judgment.
____________________________
UNITED STATES MARSHAL
By: ________________________
DEPUTY U.S. MARSHAL

58a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of 5 years as
to Count 1. 3 years as to each of Counts 2 and 3 and 5
years as to Count 4. All terms of supervised release
to run concurrent with Count 1.
The defendant shall comply with all of the following conditions:
The defendant shall report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the Bureau of Prisons.
A. STATUTORY CONDITIONS OF
SUPERVISED RELEASE
1) The defendant shall not commit any federal, state
or local crime.
2) In any felony case, the defendant shall not possess
a firearm or ammunition as defined in 18 U.S.C.
§921.
3) The defendant shall not illegally use or possess a
controlled substance.
4) The defendant shall submit to one drug test within
15 days of release from imprisonment and at least
two periodic drug tests thereafter, as directed by
the probation officer.
 The above drug testing condition is suspended
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)
5) Pursuant to Pub. Law 108-405, Revised DNA Collection Requirements Under the Justice for All Act

59a
of 2004, if applicable, the defendant shall cooperate in the collection of DNA while incarcerated in
the Bureau of Prisons, or as directed by the probation officer.
6) If this judgment imposes any criminal monetary
penalty, including special assessment, fine, or restitution, it shall be a condition of supervised release that the defendant pay any such monetary
penalty that remains unpaid at the commencement of the term of supervised release in accordance with the Schedule of Payments set forth in
the Criminal Monetary Penalties sheet of this
judgment. The defendant shall notify the court of
any material change in the defendant’s economic
circumstances that might affect the defendant’s
ability to pay restitution, fines, or special assessments.
B. STANDARD CONDITIONS OF
SUPERVISION
1) The defendant shall not leave the judicial district
without the permission of the court or probation
officer;
2) The defendant shall report to the probation officer
in a manner and frequency directed by the court
or probation officer;
3) The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4) The defendant shall support his or her dependents
and meet other family responsibilities;
5) The defendant shall work regularly at a lawful occupation unless excused by the probation officer

60a
for schooling, training, or other acceptable reasons;
6) The defendant shall notify the probation officer
ten days prior to any change in residence or employment;
7) The defendant shall refrain from excessive use of
alcohol;
8) The defendant shall not frequent places where
controlled substances are illegally sold, used, distributed, or administered;
9) The defendant shall not associate with any persons engaged in criminal activity, and shall not
associate with any persons convicted of a felony
unless granted permission to do so by the probation officer;
10) The defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11) The defendant shall notify the probation officer
within 72 hours of being arrested or questioned by
a law enforcement officer;
12) The defendant shall notify the probation officer
within 72 hours of being charged with any offense,
including a traffic offense;
13) The defendant shall not enter into any agreement
to act as an informer or special agent of a law enforcement agency without the permission of the
court;
14) As directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant’s criminal record or

61a
personal history or characteristics, and shall permit the probation officer to make such notifications and to confirm the defendant’s compliance
with such notification requirement.
C. SUPERVISED RELEASE
ADDITIONAL CONDITIONS
SUBSTANCE ABUSE
 The defendant shall satisfactorily participate
in a treatment program approved by the probation officer relating to substance and/or alcohol
abuse, which may include evaluation, counseling, and testing as deemed necessary by the
probation officer.
SPECIAL ASSESSMENT
 The defendant shall pay a Special Assessment
fee in the amount of $100 per count, for a total
of $400.00 as directed by the probation officer.

62a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
TOTALS

Assessment
$ 400.00

Fine
$

Restitution
$

 CVB Processing Fee $25.00
 The determination of restitution is deferred until
Click here to enter a date.. An Amended Judgment
in a Criminal Case (AO 245C) will be entered after
such determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned payment, unless specified otherwise in the
priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of
Payee

*

Total
Loss*

Restitution
Ordered

Priority or
Percentage

Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after Septemer 13, 1994, but before April 23, 1996.

63a

TOTALS

$________________ $________________

 Restitution amount ordered pursuant to plea
agreement _____________
 The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth day
after the date of the judgment, pursuant to 18
U.S.C. § 3612(f). All of the payment options on
Sheet 6 may be subject to penalties for delinquency
and default, pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the
 fine  restitution
 the interest requirement for the  fine  restitution is modified as follows:

64a
SCHEDULE OF PAYMENTS
Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.
Payment of the total fine and other criminal monetary penalties shall be due as follows:
A  $400.00 Special Assessment shall be paid
in full immediately.
B  $______ immediately, balance due (in accordance with C, D, or E); or
C 

Not later than __________ ; or

D  Installments to commence ______ day(s) after
the date of this judgment.
E  In _____ (e.g. equal weekly, monthly, quarterly) installments of $______ over a period of
______ year(s) to commence when the defendant is
placed on supervised release.
The defendant will receive credit for all payments previously made toward any criminal monetary penalties
imposed.
Unless the court expressly orders otherwise, if this
judgment imposes a period of imprisonment, payment
of criminal monetary penalties shall be due during the
period of imprisonment. All criminal monetary penalties, except those payments made through the Bureau of Prisons Inmate Financial Responsibility Program, are to be made to the Clerk of the Court.
If the entire amount of criminal monetary penalties is
not paid prior to the commencement of supervision,
the balance shall be paid:

65a
 in equal monthly installments during the term
of supervision; or
 on a nominal payment schedule of $_______ per
month during the term of supervision.
The U.S. probation officer may recommend a modification of the payment schedule depending on the defendant’s financial circumstances.
Special instructions regarding the payment of criminal monetary penalties:
 Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.

 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant’s interest
in the following property to the United States:
SEE ATTACHED

66a

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MARYLAND
UNITED STATES OF
AMERICA

CASE NUMBER 14CR-0531-GJH

vs.
QUINTIN ANTONIO
BELL,
Defendant.
MOTIONS HEARING - VOLUME II
TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE GEORGE
JARROD HAZEL
TUESDAY, OCTOBER 13, 2015; 2:08 P.M.
GREENBELT, MARYLAND
FOR THE GOVERNMENT:
Michael T. Packard, Esquire
UNITED STATES ATTORNEY’S OFFICE
6406 Ivy Lane, Suite 800
Greenbelt, MD 20770
FOR THE DEFENDANT:
Michael T. CitaraManis, Esquire
OFFICE OF THE FEDERAL PUBLIC DEFENDER
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770

67a
Proceedings recorded by mechanical stenography,
transcript produced by computer.
_______________________________________
CINDY S. DAVIS, RPR
FEDERAL OFFICIAL COURT REPORTER
6500 CHERRYWOOD LANE, SUITE 200
GREENBELT, MD 20770
*

*

*

[81] THE COURT’S RULINGS
THE COURT: So we are ready for finding of facts
and conclusion of law in United States versus Bell, 14531. There are a variety of motions before me. We
heard testimony from a number of witnesses last
week, and we are back here together to conclude the
hearing. Having now heard testimony and argument,
I am ready to rule.
First, beginning with some findings of facts. Going over the testimony that we heard, I heard testimony from Officer Rafael Lopez, who has been an officer with the Metropolitan Police Department in
Washington, D.C., since 2004. He was on duty on August 24, 2014, when he received a call from a CI about
a man with a gun in the 4800 block of Alabama Avenue. He arrived at the scene 10 to 15 minutes after
that.
The CI provided a description of the subject individual and the subject vehicle, black male, black shirt,
a little heavy, with other individuals in the car. The
car was a dark [82] color, perhaps green, Chevy Malibu with Maryland license plate. The CI said that he
had been in the vehicle and that the officer was
armed.

68a
Officer Lopez provided that information to his supervisor and then went to Alabama Avenue, located a
vehicle that basically matched that description. Although he said it was a dark-colored blue Chevy Malibu, but with Maryland plates, and a driver matching
the basic description that had been given, as well as
the number of individuals in the car.
He gave orders to the arrest team to stop the vehicle, saw an unknown male briefly approach and
then move away. Didn’t see the man or anyone else
place anything inside the vehicle. The arrest team
moved in. The driver began to exit rapidly but was
stopped. Officer Lopez did not participate in the
search, although he learned that a gun was recovered.
He has worked with the CI previously. Other tips
given by the CI has led to seizures. He’s never provided false information. Other officers have used him
and found him reliable.
He was arrested for a domestic offense. The CI
told him about it. The officer stated on cross that he
never followed up to find out if CI had been convicted.
He didn’t ask him specifically if he had done it.
CI’s reliability later was called into question
based on issues with another case.
[83] I also heard from Officer Jason Boockholdt
from the MPD special missions unit, previously with
vice. On August 24, 2014, he was involved in the seizure of the defendant. Their plan was to make contact
with the defendant and see what unfolded from there.
He approached the vehicle. The defendant attempted to exit. The defendant got his feet to the
ground when he was pushed back into the car so that
Officer Boockholdt could get control of him. He then
immediately removed the defendant and observed the

69a
pistol in plain view. Officer Boockholdt noted that although it sounded like a variety of steps, that all of this
really happened in a matter of seconds. He mentioned
that he never made any commands or announced “police.”
The vehicle was searched. Three types of drugs
found, small quantities, but three different types of
drugs were found in the vehicle. A large amount of
cash was found on the defendant. I believe the testimony was that it was over $1,500 dollar.
I heard from Detective Herndon of the police department. He conducted an interview with the defendant after the August 24, 2014 arrest. The interview was recorded. That video was played for the
Court. After asking for biographical information, the
defendant was read his rights, agreed that he was
willing to answer questions, signed the form, which
was admitted into evidence.
[84] Again, having viewed the video both in court
and in my chambers, it is clear at all times that the
defendant is perfectly comfortable. There is nothing
there suggesting anything untoward going on in that
interview room.
Finally, I heard from Agent Frank Oliver, who
helped conduct a search of Mr. Bell’s apartment in
April of 2010 [sic]. When he entered, he found the defendant’s wife was seated in the living room. Members of PGPD had already been through some parts of
the apartment. The defendant was coming from the
kitchen area.
With both seated in the living room, he informed
Mrs. Bell of the search warrant and asked her if there
was any weapon or anything that could hurt the officers. He testified that he made eye contact directly

70a
with Ms. Bell and that Ms. Bell was who he was directing the question to. Mr. Bell spoke up and said
there was a gun under the couch. It was noted on
cross that he didn’t ask about any other type of
weapon, only a gun, which was what the search warrant was for.
I find that all of the testimony that was given in
the motions hearing was credible. All witnesses were
vigorously cross-examined.
I’ll note -- and I meant to note this at the outset. I
think all counsel in this case did a very thorough, very
good job both in the briefing and in the presentation
of evidence.
Going back to what I was saying here, the cross
was [85] thorough, but I did find that all of the witnesses who testified were truthful with the Court.
And so I do adopt their testimony for the purposes of
my findings of fact, and they, therefore, form the basis
for my legal conclusions.
So there are a variety of motions that stem from
those statement of facts.
Regarding the motions to suppress statements,
there are statements given on April 10, 2014 and
statements given on August 24, 2014. They both
make up the motion to suppress statements that is
ECF number 11.
Regarding the April 10, 2014 statement in the
house, defendant’s primary argument is that the
question regarding firearms in the house was actually
directed at him and not his wife. I do credit, as a factual matter and as a legal matter, Agent Oliver’s testimony that he did direct the question at Ms. Bell and
that the defendant then volunteered an answer.

71a
The fact that the defendant would do that is,
frankly, corroborated by my observations of him in the
video, where he seemed very comfortable speaking to
law enforcement. And so it actually makes it very believable that he would have volunteered that statement, just as Agent Oliver suggested that he did.
So while I find that the defendant was in custody,
he was not being interrogated. Therefore, his statements are voluntary, and those statements are, therefore, admissible even [86] though Miranda had not
been given.
Secondly, even if the question had been directed
at him, that question and the response would have
fallen under the public safety exception. Even though
a brief search had already been done, there was specific reason to believe a firearm was present; hence,
there was an objectively reasonable need to protect
the police from immediate danger that could result
from the presence of a firearm.
Regarding the August 24, 2014 statement, it is
abundantly clear, based on the totality of the circumstances as testified to by Detective Herndon, as seen
on the waiver form, but especially as viewed with my
own eyes watching the video, that the defendant made
a knowing and voluntary waiver of his rights under
Miranda. Thus, those statements will not be suppressed.
And so for all of those reasons, ECF number 11,
the motion to suppress statements, is denied.
Regarding ECF number 12, the motion to suppress evidence from the August 24, 2014 car stop, a
car stop can be based on reasonable articulable suspicion of criminal activity. Reasonable articulable suspicion is based on a totality of the circumstances. The

72a
Court must analyze in this case whether the action
here was justified in its inception and whether the
subsequent actions were reasonably related in scope
to the circumstances justifying the stop.
In this case there was a tip from someone who had
been a [87] reliable source. The fact that he may have
later become unreliable, as there was some testimony
to that effect, is not relevant here. What’s relevant
here is whether he was a reliable source at the time,
and the testimony establishes that he was.
Upon arrival, they have some, not a lot, but they
have some corroboration and that they see the car
generally matching the description, with multiple individuals inside, as the CI said there would be.
I find, therefore, that there was sufficient reasonable articulable suspicion to approach and investigate
as the Terry case permits.
Everything the officer did from that point until
the point the gun is seen is consistent with what they
are permitted to do as part of a Terry stop. I do not
agree with the defense argument that this went beyond a Terry stop. Specifically, they approached, and
when the defendant appeared as though he might flee,
they stopped him from doing that and then pulled him
out of the car. At that point the gun is seen in plain
view, and then they have probable cause to search the
vehicle, which they did.
They also could have at that point arrested him
and, therefore, had probable cause to search the remainder of the vehicle for additional evidence of the
crime of illegal firearm possession.
[88] So for all of those reasons, ECF number 12,
the motion to suppress evidence number 1, is denied.

73a
Going slightly out of numerical order, although
I’m sure someone will tell me if I somehow miss one,
ECF number 15 is the motion to suppress evidence of
the April 10th search warrant. My job here is to review the search warrant to see if the judge had a substantial basis for concluding that there was probable
cause to issue the warrant.
Probable cause is a practical, commonsense decision whether, given all the circumstance set forth in
affidavit, there is a fair probability that contraband or
evidence of a crime will be found in a particular place.
Here, in reviewing the affidavit, there is reliable
information from a CI. The veracity of the informant
is challenged, but there is sufficient evidence in the
search warrant regarding his reliability. The CI identified an individual named Go-Go, who lived at the
subject location. The CI says that within 10 days of
that time he or she had been in the residence and seen
a firearm and distribution amounts of narcotics. A
check indicated that Mr. Bell went by the name GoGo.
I will say, to the defense’s point, I think the affidavit would have been even stronger had it also confirmed that Mr. Bell lived at that address. That being
said, I think the best way I would summarize that is
what I said earlier, which is, [89] again, it might have
made it stronger, but it’s strong enough as it is. Additionally, there’s a criminal history that includes drug
trafficking convictions.
And so I do not -- I do find, as was specifically teed
up in ECF 15, that there is any issue with the four
corners of the search warrant.
Regarding the issue raised in ECF 24, regarding
whether the CI was acting as a private citizen or law

74a
enforcement agent, I find that even if he was not acting as a private citizen, which is not a finding I’m
making, but for the sake of this discussion, even if we
was not acting as a private citizen, there is no indication that his presence in the home was not consented
to. Indeed, it was pointed out that the search warrant
affidavit uses the word “visited.” Again, there’s no indication that even if he was not acting as a private
citizen, there is no indication that his Fourth Amendment rights were violated through the CI’s actions.
So in total, I do find that the judge had a substantial basis for concluding that there was probable
cause. Even if he did not, Leon good faith would certainly apply here.
So for all of those reasons I am denying the motion
to suppress evidence, fashioned as motion to suppress
evidence number 2, at ECF number 15, and the motion to suppress evidence number 3, at ECF 24, are
both denied.
It was unclear to me, as I indicated earlier,
whether [90] there was an actual challenge to the August, 2014 search warrant. I did review that search
warrant. If there was such a challenge, I would deny
that as well for much the same reason, as it includes
much of the same evidence but the additional evidence, of course, of the information from the car stop.
So again, for the record, ECF 15 and ECF 24,
those motions to suppress are denied.
Moving back now to the motion to sever counts,
ECF number 13, the defendant carries the burden to
show that joinder would be so manifestly prejudicial
that it would outweigh the need for judicial economy.
There needs to be a strong showing of prejudice in that
regard.

75a
Here, we have a case where there would be mutual
admissibility of the separate counts; therefore, there’s
no prejudice here. Each case would be admissible as
404(b) evidence in the case of the other. I think the
Fourth Circuit cases on that are pretty clear regarding the nature of the different counts, that they would,
in fact, be admissible as 404(b) evidence in the other.
Therefore, I find the defendant hasn’t carried its
burden to show that joinder here wouldn’t be manifestly prejudicial. So ECF number 13 is denied.
Regarding ECF number 14, motion for disclosure
of confidential informant, I must weigh the public interest in [91] protecting the identity of the confidential informant against the right of the defense to prepare its defense. I have to consider the type of crime,
the defenses and the significance of the informer’s testimony. It’s a heavy burden to demonstrate the need
for identification, the burden being on the defense.
Disclosure must be highly relevant or essential to a
fair determination of the case.
In effect, having -- and I looked closely at this, and
I looked closely at the -- and I agree with Mr. Packard’s assessment that, clearly, a lot of work went into
putting together who the defense believes the informant to be. And so, certainly, my kudos to whoever put
that together.
But nonetheless, where it comes out in my mind
is that the defense is asking me to disclose the CI and
pierce the informer’s privilege based on what still does
come down to speculation. And so I’m going to decline
the invitation to do that.
Even if their very thorough efforts at, frankly,
speculating who the CI is is accurate, that still

76a
wouldn’t get them to a Franks hearing as the statement is not actually inconsistent. The statement
here, that he had never lied to law enforcement, would
still be true even if it is the individual suspected of
being the CI. I do take Mr. CitaraManis’s point that
it’s splitting hairs a little, but nonetheless, the statement would not be untrue that is in that [92] statement.
So even if they had the right person, I still don’t
think that that would get them to a Franks hearing.
And so certainly, in that circumstance, I’m not going
to even subject him to an in-camera review, which
could start us down the road where the informant
would ultimately be disclosed.
So for all of those reasons I am going to deny ECF
number 14, which is the motion for disclosure of the
CI.
Finally, I believe -- again, somebody will tell me if
somehow I missed one -- there is the Government’s
motion in limine to admit evidence under 404(b) and
as intrinsically linked.
Given the evidence here, and we’re referring specifically to the August 24th stop, I do find that the evidence is intrinsically linked under the Basham case,
that is, that it explains the circumstances surrounding the event. The circumstances of one explains the
circumstances of the others.
At the traffic stop, he is found with individual
units of narcotics, as well as a large sum of cash and
a firearm. I suspect there will be expert testimony
that this is indicative of drug dealing, which then explains the circumstances surrounding the evidence
that he had in his house.

77a
So I do find that, specifically, the August 24th stop
is intrinsically linked with the evidence that was
found in the August 29th search warrant.
[93] I also find that if it wasn’t intrinsically
linked, it would still come in under 404(b). It’s certainly relevant. It is necessary here, necessary to
prove knowledge of the firearm in the April search
warrant in this first case, which is a constructive possession case. I do find that the testimony would be
reliable based on both the testimony of the officers,
plus the statements that the defendant himself made,
plus the DNA evidence.
And I do find that the prejudicial effect does not
outweigh the probative value. The nature of the crime
here is no more less likely to trigger a reaction in the
jury than the crime he is charged with. This isn’t like
bringing in evidence of a murder into a drug case. It’s
evidence, frankly, of a similar type of crime.
So for all of those reasons, I am going to grant the
Government’s motion in limine, which is ECF number
31.
I believe I have now gone through all of the motions.
*

*

*

*

78a

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
UNITED STATES OF
AMERICA
v.
QUINTIN A. BELL,
Defendant.

: Criminal Action No.
: GJH 14-0531
: Greenbelt, Maryland
: Monday, May 2, 2016

________________________/ 12:10 P.M.
TRANSCRIPT OF SENTENCING PROCEEDINGS
BEFORE THE HONORABLE
GEORGE JARROD HAZEL
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE
GOVERNMENT:

MICHAEL THOMAS
PACKARD, Esquire
U.S. Attorneys Office
District of Maryland
6500 Cherrywood Lane,
Suite 200
Greenbelt, Maryland 20770
301-344-4130

79a
FOR THE
DEFENDANT:

MICHAEL T. CITARAMANIS, Esquire
Office of the Federal Public
Defender
6411 Ivy Lane, Suite 710
Greenbelt, Maryland 20770
301-344-0600

OFFICIAL COURT REPORTER: LINDA C. MARSHALL, (301) 344-3229
COMPUTER-AIDED TRANSCRIPTION OF
STENOTYPE NOTES
*

*

*

[4] THE COURT: Very well.
[5] All right. So, as I indicated, I guess, in my
mind there are a total of five issues as I count them to
be argued. One deals with his career offender status,
which really I don’t think there’s any dispute regarding the PWID conviction, but you would need at least
-- the government would need, at least, one of the
three being the assault with a deadly weapon or the
two robbery with deadly weapons to count to make
him a career offender and we need two of them to
count to make him an armed career criminal. So those
are, I guess, two separate issues.
(stopped) And then there’s the issue of the successive 924(c) counts and then there is also the issue of
the two enhancements, although those matter a lot
less if I do impose the mandatory minimums.
I will hear from the -- I guess since the defense is
objecting to these findings, I will hear from the de-

80a
fense first on these legal issues. I’ll give the government an opportunity to respond and I will give Mr.
Citaramanis the last word in rebuttal.
Obviously, I have read your materials and I am
familiar with the issues, as counsel know, from this
case and others, but I will hear from you.
MR. CITARAMANIS: Thank you, Your Honor.
Your Honor, in terms of the issue of whether or
not Mr. Bell is subject to the 25 year mandatory minimum, we take the position that in view of both the
fact that it increases the [6] mandatory minimum
and, I think, because of the degree to which it increases the mandatory minimum that it is appropriate and should be required that the jury be presented
with that issue and that matter be found of the prior
conviction under 924(c) proven beyond a reasonable
doubt. Since that wasn’t done, therefore, he should be
subject just to the otherwise five year mandatory minimum for that violation.
You know, I’ve laid out the reasons in our briefing.
I don’t need to really, I think, say anymore about that
issue. You know, I think the primary issues again
concerning the career offender and armed career criminal status that probation has found, the government
is advocating -THE COURT: Let’s be clear. It wasn’t clear to me
that the probation office found him to be an ACC.
MR. CITARAMANIS: You’re absolutely right,
Your Honor. I apologize for that. They have concluded
he was career offender. They have not concluded that
he was armed career criminal. That was an issue that
was raised subsequent to the filing of the final version
of the Presentence Report.

81a
And you know, with respect to those issues, I
think first off, with regard -- and we’re really focusing,
I think, on three convictions. There is the two reported convictions in 1984 for robbery with a deadly
weapon that were, basically, consolidated for purposes
of plea at sentencing. And then there’s the subsequent conviction for assault with a deadly [7] weapon
in the District of Columbia.
With respect to the robbery convictions, I just
have some preliminary comments about those. And
first off, I think the government is, at least, implicitly
conceded that it doesn’t qualify for career offender
purposes, because they are too old. They don’t score
criminal history points and, therefore, they don’t
count for career offender purposes.
But for, you know, armed career criminal, I think
one of the points I think that is important to keep in
mind is as argued in my memo, the deadly weapon allegation has been found by Maryland courts to be a
sentencing enhancement and -- going back to the
Whack decision in 1980, the Conyers decision in 1997.
And I know that the government points out correctly as a matter of current law that though the element or the requirement of a deadly weapon to be
used, if it enhances the sentence, increases the minimum, increases the maximum is an element of the offense under Descamps and, therefore, would have to
be proven beyond a reasonable doubt to a jury, but
that’s the current law.
At the time that Mr. Bell was actually convicted
and sentenced, that was not the law. And so, at the
time it was regarded as a sentencing enhancement
and not an element of the offense. It was not some-

82a
thing that was required to be proven beyond a reasonable doubt to a jury and, therefore, was then [8] considered an element.
So, for that reason alone, we submit to the Court
that the robbery with a deadly weapon reported convictions would not qualify due to the alleged use of a
deadly weapon. And if all the Court is really faced
with there is the robbery conviction, we submit that
robbery alone does not qualify for the different reasons cited in the memo.
And there have been numerous cases where the
government has, at least, conceded that robbery does
not qualify as a crime of violence or violent felony for
career offender or armed career criminal purposes.
THE COURT: So, let me be clear. I just want to
be clear on the argument they made. So, for the robbery deadly weapon issue, has the statute changed
since the time he pled guilty to it or are you just saying
that the way in which courts have interpreted it has
changed?
MR. CITARAMANIS: Well, actually, the statute
has changed, although the definition under statute
has largely remained the same. I mean, Maryland has
recodified robbery since then. And I can’t recall the
exact year that that was done, but he was prosecuted
under the prior version, not the version that currently
exist.
But I guess the point to be made is it’s not -- you
know, what matters is at the time that it was not an
element and, therefore, you’re looking at just what the
offense was at [9] the time, which is robbery. And the
fact of the matter is too that I think if the Court were
to enhance this sentence on the basis of a prior conviction, which at the time it qualified, at least, arguably

83a
qualify as a crime of violence or, I should say, violent
felony, then you know, it can’t enhance it now because
of some different interpretation more recently.
So, the bottom line is that robbery doesn’t qualify
and I think the government has, at least, in various
other cases conceded that. You know, there’s current
appeal. There’s been -- it’s pending now that they’ve,
basically, made that concession and also in a couple of
2255 cases that we’ve cited in our memorandum. And
anecdotally there’s been, I think, even some further
cases that we’ve been able to cite to the Court where
other judges of this court have agreed that robbery is
not a crime of violence or violent felony for enhancement purposes.
I guess the other comments I want to make really
kind of pertain to both the robbery convictions and the
assault with a deadly weapon conviction. And basically, Your Honor, as the Court knows, there has to be
a categorical approach and that requires that necessarily the elements of the offense at issue have to include now, post-Johnson, with the residual clause
having been found to be, you know, invalid, that it requires the use of violent force and I think we all can
agree on that.
And the problem really at this point is whether or
not robbery with -- either with or without deadly
weapon and assault [10] with a deadly weapon under
D.C. law can be committed in a -- basically, without
requiring violent force against a person.
Now, with respect to the robbery, first off, Your
Honor, I think it is clear from the cases we’ve cited
and the Maryland courts and whether or not there intermediary appellate courts, Court of Special Appeals
or the state’s highest court, doesn’t really matter.

84a
You have a state appellate court’s finding that
robbery under Maryland law can be committed by the
use of force, threat of force against property. And
that’s a distinguishing factor that, you know, not all
states may require, may allow that.
THE COURT: Were those the 1970s cases that I
think - I’m sure you’re familiar with the Moore case.
MR. CITARAMANIS: Well, I am, Your Honor,
and the problem with the Moore case is this.
The Moore case, first off, again, I think they, you
know, have looked at -- have looked at a Maryland
Court of Appeals decision, the Spencer case in, in -partly in making their ruling. But the thing is, Spencer didn’t involve an issue such as here, whether robbery can be committed by threatening force or use of
force against property versus a person. That wasn’t
the issue in the case. So it’s kind of hard to cite Spencer for a proposition when it’s a totally different context.
Spencer involved a case where someone walks into
a [11] Jiffy Lube and says something to the effect of,
don’t do anything. And the clerk responded by interpreting that to be, well, this must be a robbery and
turning over money from the cashier’s till to the defendant.
The issue there was, did the actions by the defendant rise to the level that would make a reasonable person believe that force of whatever sort was going to be
used. So, the question wasn’t whether it was force
against person versus force against property, because
the only theory there that was advanced by, obviously,
the state was force against the person, the teller who
was standing there behind the counter.

85a
So, that was the crux of the discussion as whether
or not was the level of threat, basically, necessary to
cause a reasonable person to be in fear. It wasn’t,
again, whether it was person versus property.
So, I don’t -- it’s kind of apples and oranges. I don’t
think you can use it, Spencer, to show, well, it requires
force against the person when that was the only theory that was advanced by the state. And I think you
have to separate out what was at issue with that case
and what wasn’t. So, I don’t think Spencer is really -it’s not pertinent and I don’t think it carries the day.
And I think the reliance in Moore on Spencer, again, I
think was really not really apt to the issue at hand.
I would also note, Your Honor, that, you know, in
Moore, [12] you know, I know they cite the Castleman
case, but the Fourth Circuit itself just recently in the
McNeil case noted that, you know, Castleman basically has no applicability in the context where, you
know -- where you’re talking about a -- it’s a -The bottom line is this, is that Castleman dealt
with a different statute. It dealt with the statute making it illegal to possess a firearm after having a prior
conviction involving domestic violence. The definition
of that crime is different than the definition of crime
of violence and a career offender.
THE COURT: I do recall that. I think it leaves
the question open. I think Castleman leaves the question open.
MR. CITARAMANIS: Right. They specifically
said, they’re not answering that question. So to cite
Castleman as some support -THE COURT: I mean, there’s language in Castleman. I dealt with this in the Hancock case, but

86a
there’s language in Castleman to play with, but
there’s no holding to anchor to.
MR. CITARAMANIS: Exactly. And I think Moore
really seems to rely on Castleman to support the holding. And I think again, as the Court recognizes, I
think that’s -- there was no holding, which I think actually supports the government’s position here, supports the holding in Moore and, again, the Fourth Circuit under recent case of McNeil decided just last –
[13] well, I guess end of March disavowed that Castleman would have any applicability.
So, you know, the fact is that Maryland has this,
you know, call it a unique or -- sort of say would be an
oddity, but it does allow -- I think there’s some other
states too, frankly, that do allow for robbery to be committed by applying force against property or an object,
or threatening force against property or an object.
And I did come across a recent decision this
March, United States -- I’m sorry. It’s a Western District of Washington or Eastern District of Washington
decision actually decided March 10th in U.S. versus
Navarro, N-A-V-A-R-R-O. The Westlaw cite is 2016
Westlaw 1253830.
THE COURT: Westlaw what?
MR. CITARAMANIS: I’m sorry?
THE COURT: I didn’t get the Westlaw cite.
MR. CITARAMANIS: Oh, I’m sorry, Your Honor.
2016 Westlaw 1253830 where they were looking at the
Washington State first degree robbery statute. And
again, they also noted that under that statute it could
be -- as interpreted by the state courts, that it could
be committed by applying force against an object.

87a
And basically, you know, on that basis, this was
on a -- actually a 2255 Motion, the Court vacated the
sentence enhancement in that case.
[14] And, Your Honor, I think one of the -- there’s
another case I wanted to just pull out, but not necessarily for the proposition or the decision, but I think
there was a comment by the concurring judge. This is
a U.S. versus Parnell, P-A-R-N-E-L-L. It’s a Ninth
Circuit published opinion. I don’t have the Westlaw
cite, but it was decided in April or, at least, the decision was filed in April this year. But that was where
the Court found, actually, Massachusetts robbery
didn’t qualify as a violent felony for armed career
criminal purposes.
THE COURT: Robbery or robbery with a dangerous weapon?
MR. CITARAMANIS: It was -- it included -Let me double check, Your Honor. I believe it included armed robbery. It did, it did, but Judge Watford in a concurring opinion said, “The notion that robbery is not a violent felony as that term is defined in
the Armed Career Criminal Act strikes me as counterintuitive to say the least. Holding that armed robbery
doesn’t qualify as a violent felony seems even more absurd.” But then he says, “but as the Court’s opinion
explains, that conclusion is compelled by two oddities
of Massachusetts law.”
And I’d say similarly here. If you want to call it a
oddity, I’m not so sure, but the bottom line is Maryland robbery has again, I submit to the Court, this difference, this unique maybe aspect to it that, again, it
can be committed by just, you [15] know, threat of
force against property. That clearly doesn’t qualify
then as a violent felony.

88a
Now, whether or not the Court accepts these intermediary, these Special Court of Special Appeals
opinions, I think it’s also important to note, it’s not a
question really –
THE COURT: Well, let me back you up a second.
So, in terms of what you’re relying on for the notion that threats to property is sufficient, is it just the
two Maryland Court of Special Appeals cases from
1970? And the reason I ask that is because it’s sort of
the same point you made about the Spencer case. As
I understand it, those two cases didn’t deal with
threats against property. It’s a statement they made,
but those cases didn’t deal with threats against -- so
they weren’t deciding it in the same way you say Spencer wasn’t really deciding it. So are those the two -- is
it just those two cases you rely on for that proposition?
MR. CITARAMANIS: Well, Your Honor, again, I
have to admit, I haven’t done a further exhaustive review to see what other cases in Maryland may have
reached a similar decision or made similar observation, but I guess for purposes of today, I’d say those
are the two primary cases that -- the two cases I’m relying on.
You know, I think the one thing too I think is important to note is the Fourth Circuit in Aparicio-Soria
made clear that it doesn’t matter how many cases you
count up that [16] there might be reported decisions
about in terms of factually what they involve. And in
that case, that had to do with whether or not resisting
arrest qualifies as a crime of violence under the guidelines.
And there, the Fourth Circuit said, even if -- and
I think there were what, 37 reported decisions that

89a
the government cited all of which reflected facts
which, basically, involved, you know, violent force.
And the Court of Appeals said, look, it doesn’t
matter how many cases you cite, but if the state court
has said that this crime can be committed in a way
that doesn’t require violent force, then that’s what we
have to accept.
THE COURT: But the difficulty here is, though,
you have those two cases in the 70’s saying one thing
and then you have Spencer, which is more recent and
I think the higher court saying to the contrary.
MR. CITARAMANIS: Well, again, I think Spencer again didn’t address the issue at hand. And I understand the Court’s point that neither did the two
other courts, but I think the fact -- I mean, there has
to be some reason why the lower courts previously
talked about property can be the object of the force.
You know, it’s harder, I think, to glean from the
Spencer case as to, you know, how broad or what applicability that, I think -THE COURT: I guess your argument is that
Spencer [17] might have just neglected to mention it
and -MR. CITARAMANIS: Because it wasn’t necessary to the decision. It wasn’t necessary in the context
it was decided. And it might also be, you know, possible, I mean, for the Court to say, well, it wasn’t necessary for these two earlier Court of Special Appeals
opinions to have said what it said. And, yeah, you
might be able to look at it as somewhat maybe dicta,
but the fact is, they said it and it means something.
I mean, is it something that you just say, well,
they said it, but it doesn’t have any applicability, it

90a
doesn’t have any meaning whatsoever? I don’t think
the Court can just, kind of, throw it out and say, well,
you know, because they’re in intermediary court or because they’re old, or because it wasn’t necessary to the
facts, I don’t think you can throw it out because of the
breadth with which the Court spoke, you know.
So, I think that -- and I guess, maybe it -- put it
this way: I guess the Maryland statute does not delineate that you have to actually commit or use the
force or threatened force against a person. So, you
know, the bottom line is, if you have a state court interpreting the statute as also allowing for force
against or threat of force against property, I think it
makes sense.
And I don’t think that reaching a contrary conclusion would therefore be justified. And maybe it’s
partly because, you know, you don’t have or just because you don’t have a higher [18] court, higher state
court being faced with this specific issue doesn’t mean
that the Maryland Court of Special Appeals panels
who render the decision cited are incorrect.
So, I think based on the law that the Court has
before it as interpreted by the -- a Maryland Court of
Appeals, appellate court, that that’s what the Court
has to apply in this case and because, again, Maryland
robbery, we submit, can be committed by use of force
against property or threat of force against property,
not person, Maryland robbery doesn’t qualify.
I would also note, Your Honor, that the fact that a
deadly weapon is alleged, again, doesn’t -- doesn’t
change the equation. First off, again, as I already
stated, it’s a sentence enhancement. It was a sentence
enhancement back then, despite whatever currently
the law -- federal constitution might require. But

91a
moreover, even if it is an element -- I mean, if it was
an element back then, specifically, we submit that it
still doesn’t elevate things to, you know, qualify as violent force.
And I guess, you know, in the context of the Maryland robbery, I submit that’s -- you know, that’s, I
think, easily, I think, understood when one, you know,
thinks of different examples of what can happen in
terms of use of force against property even with the
deadly weapon.
I mean, one could threaten to take a bat to another
person’s car if they don’t turn over their wallet. They
could, [19] you know, threaten to, you know, shoot
their dog if they don’t turn over their purse or any
number of different ways that force can be threatened
against property even with a deadly weapon, but not
involve violent force against the person.
THE COURT: So, I guess, I mean, the counter to
that is always, while I understand your point about
it’s not just about listing cases and seeing what you
can find, you do at least have to ask the question
whether or not the Maryland Court of Appeals would
sustain a conviction of someone for a robbery with a
deadly weapon under some of those scenarios.
MR. CITARAMANIS: Well, I think if the Court of
Special Appeals is saying, threat against property -THE COURT: Then we go back to the discussion
we were having about the Spencer versus those two
cases, but -MR. CITARAMANIS: But I mean, I guess, beyond
that, I mean, if you’re going to -- I mean, look, if the
Court rejects my argument that Maryland law doesn’t
allow threat against property, then that’s the end of
that argument. But the point is, though, that even

92a
with deadly weapon that doesn’t elevate the degree of
force if you accept the premise that certainly threat
against property is possible under Maryland robbery
statute.
You know, the Maryland robbery statute, again, I
think, is -- again, may be regarded as somewhat
unique, but again in terms of the use of deadly or, I
should say, violent [20] force, again, it’s not required
and not necessary under the Maryland statute.
You know, I think the -- again, the Spencer case, I
think, is inapposite and I think the Patterson case we
have cited, I think, contains a -- an actually appropriate analysis. That’s another case where, I guess, the
Court found that threat against an object does not
qualify as violent force against a person.
The other thing I would ask the Court to consider
is that, again, the basic definition of robbery is larceny
combined with an assault. If you view it in those
terms, you know, larceny doesn’t require use of violent
force and assault certainly doesn’t require, we all can
agree now, the use of violent force. And whether or
not a, you know, deadly weapon is introduced, I don’t
think, changes that particular equation.
You know, under Maryland law, I know it requires
a -- that there be a weapon, I mean, in part that can
be designed to cause injury or a deadly weapon, but
just because you have something that is designed to
do something doesn’t necessarily mean it is actually
used in a particular fashion.
You know, even an intent, I think as the Fourth
Circuit made clear in Torres Miguel, intent to injure
someone itself does not cause a crime to rise to the
level of a crime of violence or violent felony. And there

93a
are other examples, I think, that we’ve provided in the
briefing.
[21] So I submit to the Court that these aren’t
kind of fanciful examples and there doesn’t have to be,
again, I think, citation to a specific case where those
examples have actually been applied or reported in a
Court of Appeals decision.
We would also disagree, I think, with the notion
that, you know, of kind of what’s reasonably probable,
you know, in terms of either the offender using a
weapon in a certain way or, you know, the prosecutors
prosecuting the case if a particular -- on a particular
factual scenario.
And I guess this applies really to both whether it
be the robbery with a deadly weapon context or the
assault with a deadly weapon. You know, the fact is
that, you know, if you have -Well, the bottom line is the standard. The Court
cannot just look to see what’s reasonably probable.
And I submit to the Court that, you know, this kind of
language of reasonable probability, which was taken
from the Montcrieffe versus Holder decision. Again,
that was a case that was in a much different context.
And I think as noted in the Sentencing Memorandum or the reply, really, to the Government’s Sentencing Memo, it’s -you know, the appropriate inquiry isn’t
what’s the definition of a generic offense and then
what is -- is it reasonably probable that certain conduct falling outside this definition would be prosecuted, which is really kind of the scenario in Moncrief.
[22] Really, the proper question is, what’s the definition of a particular crime and does it require the
use of violent force against a person or threaten to use
violence or force against a person. You know, so it’s

94a
not an issue of speculating. It’s just a straight legal
question.
And again, I think if a state court has decided
things a certain way, I think that is the only thing
that’s really of concern to the Court. You know, to the
extent that the Court is concerned that there may be
these kind of cases on the -- the outlier cases where
someone is making a fantastic claim that a certain offense can be committed with a deadly weapon in a way
that just really strains credulity, which I think explains some of the language used in the Moncrief case.
The fact of the matter is that when you have either examples of prosecutions or a state court saying
that an offense can be committed a certain way, that
that’s the end of the - that’s the end of the question.
So, when it comes to robbery with a deadly
weapon under Maryland law, submit to the Court it
doesn’t qualify for the reasons stated in our memo and
assault with a deadly weapon under D.C. law doesn’t
qualify for similar reasons. You know, I think, you
know, in view of the fact that Castleman really does
not apply, does not compel a particular decision by
this Court, the fact is that when it comes to violent
force, what matters is not the fact of whether injury
was caused, which again [23] Torres-Miguel makes
that clear. What matters is whether or not there was
violent force.
And I submit to the Court that with cases we’ve
cited, the D.C. cases included where the use of, for instance, spraying someone with a particular liquid or
there was the one case where a person underhanded
motion threw lye on someone else. What matters is
not the injury. What matters is whether or not that

95a
is violent force as that term would commonly, I think,
be considered in interpreting.
So, because there are ways under the D.C. law in
which assault with a deadly weapon can be committed
without violent force, it too does not qualify. For another reason, the D.C. assault with a deadly weapon
doesn’t qualify and that’s because it doesn’t require an
intentional mens rea. And you know, that’s clear from
the D.C. decisions that we’ve cited; the Vines case,
Powell, Parker. And we submit that certainly an intentional mens rea is required under Leocal and I
think the Fourth Circuit has also made that clear in
the Garcia and Vinson decisions.
I think this Court even in Hancock, I think, recognized that in order for there to be a sentence enhancement, basically, for armed career criminal or career
offender purposes, it has to involve conviction for conduct that is intentional.
I know the Court and it’s of course cited by the
[24] government previously found that assault with a
deadly weapon under D.C. law does qualify as a crime
of violence, but again, I think it’s been clearer since
that, again, there’s intentional mens rea required.
I think, also, any reliance on the fact that manslaughter is included in the commentary to the career
offender definition of crime of violence is not persuasive. I think the Fourth Circuit has made clear in various decisions that -- including in Leshen and in Shell
that you have to have -- the commentary has to be
linked to the text. It doesn’t stand on its own.
And the fact of the matter is that I think there
have been other circuits that have certainly since
found as examples we gave, assault with a deadly
weapon does not qualify as a violent felony or crime of

96a
violence. One of those was the Armijo case from Tenth
Circuit.
Your Honor, you know, we’re in a kind of a different realm now in terms of, you know, criminal history
analysis than we were in five, ten years ago. And I
recognize, again, as the concurring judge in the Pernell case from which arose analyzing the Massachusetts robbery statute noted, it’s maybe counter-intuitive and it maybe -- seem somewhat in certain context
absurd. But when you look at the -- what the law requires or allows, the Maryland law or D.C. law, when
you look at what the definition as we’re all compelled
to apply in terms [25] of a crime of violence or violent
felony as, you know, not only the language of the law,
but as interpreted by the Supreme Court in Fourth
Circuit, when you look to what is allowed under the
Maryland and D.C. statutes, it’s broader than what
the definition of crime of violence or violent felony requires in terms of the use of violent force.
And because in -- you know, that is the simple fact,
neither can apply as violent felonies for armed career
criminal purposes and the assault with a deadly
weapon can also not qualify as a crime of violence for
career offender purposes.
THE COURT: Thank you, Mr. Citaramanis.
I don’t know if you want to also address the two
enhancements. It’s up to you.
MR. CITARAMANIS: Your Honor, I think I’ve adequately stated our reasons and, of course, those
would only apply if the Court finds Mr. Bell is not a
career offender, so -- but I think that we’ve covered our
arguments.
THE COURT: Very well. Mr. Packard.

97a
*

*

*

[30] MR. PACKARD: Moving on to Maryland robbery with deadly weapon. So, first, let’s talk about
what the definition is of common robbery. And this is
taken from Conyers v. State. Again, the government is
going to focus on highest opinions coming out of the
Maryland state courts, which states that robbery is
the felonious taking and carrying away of the personal
property of another from the victim’s person by the
use of violence or putting the victim in fear. That becomes robbery or -- with a deadly weapon when you
have the use of -- when you do that with a dangerous
weapon, with a dangerous weapon. You have to use
that dangerous weapon to do that robbery.
The government submits there’s no question that
when you combine those elements, all three together,
that is a substantive offense for purposes of federal
analysis here. Moore found that and the government
submits that that analysis is spot on.
THE COURT: Well, what about the -- Mr. Citaramanis’ argument that at the time the offense was
committed, that was not the case even if it’s the case
now?
MR. PACKARD: The defendant in his plea agreements in those cases, as indicated in the PSR, admitted that he walked into a Roy Rogers -[31] THE COURT: But as you know, I mean, it’s
-- when you’re dealing with categorical issues, it’s not
about what he did, it’s about what the elements. I
mean, do you agree with him that the elements have
somehow changed since he committed the offense?
MR. PACKARD: No, I don’t think the elements
are any different. The only difference is the way the

98a
federal court talks about the elements that exist at the
state. That’s it, that’s the only difference, unless -there was certainly no case that’s ever been shown to
me that says something different.
So, what’s a weapon? Anything that can be -- this
is Brooks v. State, again, high court opinion, anything
used or designed to be used in destroying, defeating or
injuring an enemy or as an instrument of offensive or
defensive combat. And when it becomes deadly or
dangerous, again, according to the highest court of
Maryland, when that item is inherently dangerous or
deadly, or may be used with dangerous or deadly effect. And there’s a force element that is required and
that, again, is the key to the analysis here.
The force element in this statute, it has to be committed either through the use of violence, which is actual physical violence or putting the victim in fear,
which is constructive force, intimidation.
We’ve had two courts that have already found that
this -- at least two that have already found that this
statute [32] constitutes a violent felony. The defendant has none. And while this may be a different world
that we’re in now, we’re not in the twilight zone. And
when you commit this crime and you employ a deadly
or dangerous weapon, you are committing a crime of
violence.
I want to be clear, the mere threats to property are
not sufficient -THE COURT: I’m sorry, you said two. I have the
Moore case in front of me. What was the second one?
MR. PACKARD: Segovia, Fifth Circuit, 2014 decision. Actually, that was conspiracy to commit Mar-

99a
yland robbery with a deadly weapon. And while, perhaps, in light of Edmondson the question of conspiracy may be shifted, the fact that that -THE COURT: Judge Grimm might have a different view as to whether that’s the same thing.
MR. PACKARD: He may well. Whether the government agrees with that is a separate question, but
the point being if the Fifth Circuit can find the conspiracy to commit the act would be a crime of violence,
the government has no doubt that it would find the
same, but with perhaps stronger reasoning as to the
substantive crime itself.
So, on the question of whether or not threats to
mere property constitute -- are sufficient to constitute
Maryland robbery with a deadly weapon, the government says, no. The only support that exist for that
argument are two intermediary [33] opinions from
1970. Not once since has that stray dicta ever been
repeated by any court above or below. The government is certainly not aware of any. The defendant is
not aware of any. Nobody was aware of it in Moore
because they made the same point in D.C.
And when you have Spencer v. State, the highest
court making clear that the test is whether an ordinary reasonable person under the circumstances
would have been in fear of bodily harm, that is the
law, not stray dicta from a case 30 years ago that’s
never been followed by anybody else. And given that
formulation of the relevant inquiry, the government
believes that this is, in fact, a crime of violence.
It also requires force capable of causing physical
pain or injury. The defendant’s brief attempts to say
that the force you can -- that is used here doesn’t have

100a
to be strong, doesn’t need to be so strong that it qualifies. He argues that Maryland -- the robbery with a
deadly weapon can be committed through poison, hazardous chemicals and even pepper spray which don’t
require the sort of strong physical force required.
The government thinks that’s wrong too. As noted
in Moore, the employment of even such indirect weapons entails the use of force as the Supreme Court
made clear in Castleman. And while it’s true that
Castleman may not control this precise question, the
government believes it certainly counsels this Court
that the language in there can be used, should be used
to [34] inform lower court’s opinions, including this
one, on how to handle this question.
THE COURT: I mean, the challenges, there are
two quotes that are helpful. One is written by Scalia
and a concurrence and so that’s, obviously, not the
court speaking.
And then the second, Judge Sotomayor in the majority opinion seems to be referring directly to a different statute with a different -- an admittedly different
definition.
So, again, I guess I’d say maybe I’m not disagreeing with you. It gives some, perhaps, insight into how
it’s being viewed, but it’s not controlling.
MR. PACKARD: Not controlling, Your Honor,
and the government is not suggesting it is. We are
suggesting that it -- its counseling should be persuasive in informing this Court’s analysis of the question.
And the government will also say here for the record that the claim that poison or chemical sprays are
somehow quad non-violent weapons is preposterous.
The idea that someone could walk up to someone with
a flame thrower and blow flames in that person’s face

101a
and have that count as a violent felony, but if they
walk up to that same person and sprayed them with
sarin gas leading to that person’s entire nervous system shutting down, convulsing, bowels emptying,
bladder emptying and dying in a riving pile of pain,
the idea that those two are materially different strikes
the government as unpersuasive. And if that’s [35]
what the Fourth Circuit has meant, they should be
given an opportunity to say it plainly, because it
doesn’t make sense to the government.
Indirect force, there’s no difference between that
act of pulling the trigger on the sarin gas than there
is in the act of pulling the trigger on a gun. And it’s
clear that pulling a trigger on a gun, ascending that
bullet through the air constitutes as violent force. It
should be equally clear that depressing the trigger on
that sarin gas or grabbing that needle and jamming it
into someone’s arm or the other delivery of that painful substance should be too.
I would also like the Court to keep in mind as
noted in the papers that the standard is simply causing pain or injury, not necessarily mutilation, not debilitation; pain or injury and the government submits
that this statute fits squarely within that. Does the
Court have further questions on that issue?
THE COURT: I do not.
*

*

*

102a
[43] THE COURT: Thank you.
All right. These are issues that I’m familiar with
as, frankly, all judges are at this point because these
issues arise frequently referring, specifically, to the issues of matching predicate conduct to certain sentencing enhancements and I have had to deal with that in
a couple of issues here.
As I’ve indicated in writing recently, courts again
just continue to struggle with and wrestle with these
issues at the trial court level. Ultimately, they are resolved at the appellate level, so we do the best we can
with them down here understanding that, ultimately,
they get resolved at the Fourth Circuit, if not in the
Supreme Court.
In the meantime -- and so I will note this twice
previously after hearing arguments similar to what I
heard today, I took the time to go back and write
something. I think I’ve done my part now to contribute to what’s written out there for better or for worse,
so I’m not going do that this time. I am prepared to
just rule from the bench on these issues.
As to Counts One and Two, I do find the defendant
is a career offender based first on the conviction for
possession with intent to distribute. And then based
on my prior ruling in United States versus Tavon
Smith and the reasons I stated therein, I find that the
District of Columbia ADW, assault with [44] a deadly
weapon or dangerous weapon conviction also qualifies.
Mr. Citaramanis pointed out in writing and here
today what the defense views as flaws in my reasoning
there and certainly, I take no offense to that and I expect that those arguments will be made to the Fourth
Circuit. And -- but at least, as of right now, I have not

103a
been persuaded that my ruling in that case was incorrect. And so, I’m going to still for those reasons find
that assault with a deadly or dangerous weapon in
D.C. qualifies.
Regarding his potential status as an armed career
criminal, the issue there turns on whether Maryland
robbery with a deadly weapon is a violent felony. I
reviewed, primarily -- I reviewed a number of cases,
but primarily the Moore case that’s fairly recent written by the United States District Court for District of
Columbia, Judge John Bates. And while I’m certainly
not bound by -- he’s a colleague on the district court
for a different jurisdiction, I do find it persuasive. And
I therefore am going to find that Maryland robbery
with a deadly weapon is a violent felony.
I’ll note, if I were to take any issue with the opinion, there is -- I’m not sure I agree fully with how he
addresses the Castleman case. Nonetheless, I do note
he, at least, cites to other courts that agree with his
take on it, but either way, I do ultimately agree with
what he says when he finds that the Court does not
see how robbery by means of any of [45] the instruments listed as part of or defined for the purposes of
robbery with a deadly weapon could not involve the
use, attempted use or threatened use of force capable
of causing physical pain or injury to another person.
And so, I do disagree -- excuse me, I do agree with
that core part of his ruling. Many of the other arguments made by Mr. Citaramanis in my view are adequately addressed in that opinion and so I do find that
Maryland robbery deadly weapon is a violent felony
for the purposes of the Armed Career Criminal Act.
That means that Mr. Bell is an armed career criminal.

104a
Regarding the issue of the 924(c), I do understand
defense’s argument. It’s certainly preserved for the
record, but the cases that I have seen, the one cited by
the government in particular are pretty clear and, I
believe, unanimous that the prior 924(c) does not need
to be alleged in the Indictment and found by a jury.
Therefore, even though the government did not allege it, we did not submit the issue to a jury, I do find
that he did have the prior 924(c). Therefore, by statute, he is now facing, because this is his second conviction for 924(c), the 25 year mandatory sentence.
Therefore, I do find that the defendant is facing a
mandatory minimum sentence of 15 years on the
922(g) count and 25 years for the 924(c) count which
must run consecutive, which means that he’s facing a
mandatory minimum sentence of 40 years.
[46] Notwithstanding my finding on the mandatory minimum, I do still have to do the guideline computation to figure out what his advisory guideline
range is in this case. He was convicted of four counts.
Counts One and Two are the drug counts; Count
Three was the felon in possession, Count Four was the
924(c).
As to Count One -- I should say first, Counts One,
Two and Three group. As to Count One, he was convicted of a count dealing with between 100 grams and
400 grams of heroin. That gets us to a base offense
level of 24. Then we have to look at the two sentencing
enhancements requested by the government.
Because of my finding on
hancements, they -- in some
matter what I rule. You get
because both are issues that
cluding one of them with Mr.

the career offender enways, it doesn’t really
to the same place, but
I addressed before, inPackard, frankly, to be

105a
consistent because my view hasn’t changed, I’m going
to deny both enhancements.
Regarding 2(d)1.1 Subsection 12, I look at each
case individually, but as I’ve said before, as a general
matter, I’m very reluctant to apply this enhancement
in a situation where the drugs and the items are found
in the defendant’s own residence. Again, as I’ve said
before, have a tendency to tack on enhancements like
this one somewhat routinely without always, in my
view at least, really thinking through what the enhancement is intended to accomplish.
In a situation where a defendant maintains a
stash [47] house; that is to say, he’s identifies and
makes use of a place to store and manufacture drugs
away and separate from his residence, that suggests
to the Court a higher level of sophistication such that
a higher offense level in that case is warranted. That’s
why I sometimes say, it used to be referred to as the
stash house enhancement.
While I recognize other judges may disagree and
that the Fourth Circuit would find that it’s not an
abuse of discretion if I were to go that way, when
someone has the items in their house, I don’t see why
an extra two levels is appropriate, so I don’t believe
it’s appropriate in this scenario.
I’m also not going to apply the obstruction enhancement. I somewhat grudgingly apply it when the
defendant himself testifies as the law seems to require
it, but I do get concerned when we start applying it to
witness testimony unless there is direct evidence that
the defendant took some steps to encourage the witness to lie. We just start going down a path where any
attempt to put on a defense can be seen as obstruction

106a
and that concerns me, so, I’m just -- I’m not going to
apply it in this scenario.
Nonetheless, as I said, it ends up being more of an
academic point in this case. His offense level would
remain a 24 were it not for my finding that he is a
career offender. I have so found. So his offense level
for Counts One to Three is [48] a 34 with a criminal
history category of six. His advisory guideline range
is on Counts One through Three is, therefore, 262 to
327 months.
Count Four requires a mandatory 25 year term of
imprisonment that is to be imposed consecutively.
That means that his guideline range then becomes
562 to 627 months.
Additionally, because the defendant is a career offender who has been convicted of a 924(c) count, the
guideline instructs that his range must be the greater
of two options; either 360 months to life or the range
created by adding the mandatory minimum to the
guideline range for the remaining counts. That is the
calculation that I just completed.
To make the determination, I compare the low
ends of the range. Here, that leads to a conclusion
that 562 to 627 months incarceration is the appropriate range and so that is the advisory guideline range
that the Court finds, 562 months to 627 months understanding that he is looking at the 40 year mandatory minimum.
Other than objections that have already been
made, are there any additional objections or any questions regarding my guideline calculations?
MR. CITARAMANIS: No, Your Honor.

107a
MR. PACKARD: Your Honor, this is simply a request from the government. Is the Court prepared to
make a finding whether or not the enhancement for
obstruction applies as to [49] whether in the Court’s
view Ms. Bell perjured herself while testifying in this
trial?
THE COURT: I don’t see why I need to.
MR. PACKARD: Simply a request, Your Honor.
THE COURT: No, I appreciate that, but no, I’m
not going to make that finding. If in another forum
you want to take that up, you’ll take that up and put
on whatever evidence you would. I believe that I’ve
explained why I’m not going to apply the enhancement, so I don’t see why I need to make that finding
just to make that finding. She’s not the defendant before me. Her testimony speaks for itself, is all I’ll say
on that.
Any other questions regarding my guideline calculation?
MR. PACKARD: Nothing from the government,
Your Honor.
THE COURT: Very well.
*

*

*

[58] THE COURT: Okay, very well. We’ll get to
that in just a moment.
After calculating the guidelines and departures
and hearing argument, I must now consider the relevant factors set out by Congress at 18 U.S.C. 3553(a)
and ensure that I impose a sentence sufficient, but not
greater than necessary to comply with the purposes of
sentencing.

108a
These purposes include the need for the sentence
to reflect the seriousness of the crime, promote respect
for the law and provide just punishment for the offense.
The sentence should also deter criminal conduct,
protect the public from future crime by the defendant
and promote rehabilitation. In that regard, I have
considered the nature and circumstances of the offense, the history and characteristics of the defendant,
the need to avoid unwarranted sentencing disparities
among similarly situated defendants and the types of
sentences available.
Mr. Bell was born on January 30, 1964, in Wilson,
North Carolina. His family moved into D.C., in the
D.C. area when he was young. He still maintains a
relationship with his parents as indicated by one of
the letters I received. He is [59] married and reports
having two adult children from prior relationships.
He has a history of a substance abuse and attempts at substance abuse treatment. He has obtained his GED and was employed full-time as a
maintenance worker at the type of his arrest.
His criminal history is lengthy and troubling. It
begins when he was 20 and has continued until the
present. It includes two convictions for robbery with
a deadly weapon, a conviction for assault with a
deadly weapon, a possession with intent to distribute
conviction, a possession of a prohibited object by a federal inmate conviction and an earlier 924(c) conviction.
Whatever one might think of the penalties that
come with being a career offender or an armed career
criminal, in this case the Court has to say that the title does fit.

109a
This isn’t a complicated case. It involves two
search warrants where various contraband, specifically, guns and drugs were found in his house. Certainly a serious offense, particularly given the weapon
that was found and in light of his history.
Certainly, there is always the need to promote respect for the law and provide just punishment.
The length of the mandatory minimum to be imposed here really has nothing to do with specific deterrence as it will [60] likely amount to a life sentence
if Mr. Bell is fortunate enough to remain healthy
enough that it does not equate to a life sentence. Certainly, he will be far past the age at which he would
be physically capable of committing future crime. So,
I don’t think specific deterrence is an issue here.
There may be some degree of general deterrence to be
achieved by the sentence.
As a career criminal, Mr. Bell has shown that
when he is out, it appears he commits crime. So protecting the public is certainly something the Court has
to factor into its sentence.
Regarding unwarranted sentencing disparities,
the imposition of mandatory minimums, if nothing
else, does limit disparities as it relates to defendants
with his exact record and culpability. The Court is required to give a specific sentence and that’s what the
Court is required to do here.
Ultimately, I am going to say for the record that I
cannot say that I am imposing a sentence that I find
to be consistent with the factors listed in 3553(a). I
have as I always do considered those factors. If I were
giving a sentence based on just the 3553(a) factors, I
would give a severe sentence. It would probably be
somewhere in the neighborhood of 25 or so years, but

110a
the mandatory minimum in this case dictates a higher
result. And of course, I am required to impose the
mandatory minimum.
[61] So I will say that the sentence that I am required to impose based on law is a sentence of 40 years
imprisonment, which is 480 months. That is 180
months on Counts One, Two and Three to run concurrent to each other; and 300 months on Count Four to
run consecutive to the 180 months on Counts One
through Three. That equals a total of 480 months or
40 years of imprisonment.
Regarding supervised release, I will impose a period of five years on Count One; three years on Counts
Two and Three and five years on Count Four. All of
those will be concurrent.
In terms of special conditions, he shall satisfactorily participate in a treatment program approved by
probation relating to substance and/or alcohol abuse,
which may include evaluation, counseling and testing
as deemed necessary by the probation officer.
I do find that he cannot afford a fine. I guess and
I don’t know if you could submit a Motion for Forfeiture, because if there’s a list of items -- I mean, I don’t
know if you want to just do it on the fly here, but if
you want to submit something, if you could submit it
today. I will issue the order today when I sign the
Judgment and Commitment Order.
*

*

*

*

111a

APPENDIX E
FILED: February 7, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________
No. 16-4343
(8:14-cr-00531-GJH-1)
________________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
QUINTIN ANTONIO BELL, a/k/a Quinton Antonio
Bell, a/k/a Quinten Antonio Bell, a/k/a Go-Go
Defendant - Appellant
________________________
ORDER
________________________
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Wynn, and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk

112a

APPENDIX F
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken
for public use, without just compensation.
*

*

*

*

113a
18 U.S.C. § 924(e).
(e)(1) In the case of a person who violates section
922(g) of this title and has three previous conviction’s
by any court referred to in section 922(g)(1) of this title
for a violent felony or a serious drug offense, or both,
committed on occasions different from one another,
such person shall be fined under this title and imprisoned not less than fifteen years, and, notwithstanding
any other provision of law, the court shall not suspend
the sentence of, or grant a probationary sentence to,
such person with respect to the conviction under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i) an offense under the Controlled
Substances Act (21 U.S.C. 801 et seq.),
the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.), or
chapter 705 of title 46 for which a maximum term of imprisonment of ten years
or more is prescribed by law; or
(ii) an offense under State law, involving manufacturing, distributing, or
possessing with intent to manufacture or
distribute, a controlled substance (as defined in section 102 of the Controlled
Substances Act (21 U.S.C. 802)), for
which a maximum term of imprisonment
of ten years or more is prescribed by law;
(B) the term “violent felony” means any
crime punishable by imprisonment for a term
exceeding one year, or any act of juvenile delinquency involving the use or carrying of a
firearm, knife, or destructive device that

114a
would be punishable by imprisonment for
such term if committed by an adult, that—
(i) has as an element the use, attempted use, or threatened use of physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise involves conduct that presents a serious
potential risk of physical injury to another; and
(C) the term “conviction” includes a finding
that a person has committed an act of juvenile
delinquency involving a violent felony.

